            GSA's SIGNIFICANT MANAGEMENT CHALLENGES

            The Congress requested the Inspectors General of major Federal agencies to report on the most
            significant management challenges facing their respective agencies. Our strategic planning process
            commits us to addressing these critical issues. The following table briefly describes the challenges
            we have identified for GSA and references related work products issued by the GSA OIG and
            discussed in this semiannual report.




            PROCUREMENT                Simplified processes have reduced order and delivery          2-3,
            ACTIVITIES                 time, yet competitive principles are not always followed      15 -21
                                       and opportunities may be missed for less costly services
                                       and products.

            CONTRACT                   GSA's multibillion dollar acquisition programs have           4-6
            MANAGEMENT                 expanded rapidly in terms of sales, variety, and complexity
                                       of the procurements performed. A growing list of warning
                                       signs throughout the acquisition process suggests that
                                       the technical and management skills needed by the
                                       procurement workforce to operate in this more
                                       sophisticated arena are not keeping pace with these
                                       new demands.

            INFORMATION                Technology applications have increased exponentially          6 -10
            TECHNOLOGY                 as "E-Gov" is used to better manage operations and
                                       interface with the public, but complex integration and
                                       security issues exist.

            MANAGEMENT                 Management controls have been streamlined, resulting          10-13
            CONTROLS                   in fewer and broader controls, making it essential that
                                       the remaining controls be emphasized and consistently
                                       followed.

            PROTECTION OF              GSA is responsible for protecting the life and safety         13 -14
            FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
            AND PERSONNEL              A broadly integrated security program is required.

                                       GSA's corporate knowledge is eroding and efforts to           No
                                       obtain requisite skills for the future are impeded. Better    Reports
                                       recruitment and training programs are needed to               This
                                       develop the 21 st century workforce.                          Period

            AGING FEDERAL              GSA is being challenged to provide quality space to           No
            BUILDINGS                  Federal agencies using an aging, deteriorating inventory      Reports
                                       of buildings and facing critical budgetary limitations in     This
                                       its modernization program.                                    Period




--~~-~---~-----~-----~---.---.--~~~---------
           Foreword



This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the six-month reporting period that ended September 30, 2003.

During the past six months, we continued to work with GSA to identify
business management and operational improvements in the Agency’s
programs and operations. We issued a number of reports focusing on the
major challenges facing the Agency in the areas of procurement, information
technology, management controls, and the protection of Federal facilities and
personnel. These included a first-ever survey of service contracting
practices, covering $2.4 billion in task orders awarded at four agencies; a
comprehensive review of GSA’s principal automated supply system; and
control reviews over secured inventory items, vehicle maintenance and repair
costs, construction funding limitations, and purchase card use. We also
expanded our review of the Federal Technology Service Client Support
Centers as a follow-up to our earlier issued Alert Report, which identified
improper contracting practices relating to the Federal Technology Fund.

In addition, our audit work over the past several reporting periods, and
continuing with this period, has revealed an increasing number of problems
with GSA’s contract management processes. In fact, our concerns have
caused us to formally identify contract management as a new management
challenge facing GSA. Reports this period specifically noted an array of
contract issues including weak contractor selection criteria, task orders that
were poorly crafted and did not contain appropriate clauses, and inadequate
contract oversight to ensure contractors were delivering required quality
goods and services. Following a special briefing on this issue, the
Administrator directed that a high-level team be formed to address these
problems.

We identified over $37 million in financial recommendations on how funds
could be put to better use. We achieved over $45 million in management
decisions agreeing with audit recommendations, civil settlements, and direct
recoveries. We made 294 referrals for criminal prosecution, civil litigation,
and administrative action. Criminal cases originating from OIG referrals
resulted in 32 successful prosecutions.

I want to express my appreciation to Congress, as well as to the senior
management of the Agency, for their support over this past year to the
mission of this Office. I also want to express my appreciation for the
accomplishments of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new
challenges.




Daniel R. Levinson
Inspector General
October 31, 2003
     Table of Contents


                                                                                          Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2003 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . .13

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . .15

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . .22

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . .27

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . .29

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .37

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . .40

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . .61

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .63

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .64

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral



                                                                   Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     April 1, 2003 – September 30, 2003

                        Total financial recommendations                              $39,877,083

                        These include:

                        • Recommendations that funds be put to better use            $37,063,566

                        • Questioned costs                                            $2,813,517

                        Audit reports issued                                               67

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             294

Results Attained        Management decisions agreeing with audit
                        recommendations; civil settlements; and
                        court-ordered and investigative recoveries                   $45,296,506

                        Indictments and informations on criminal referrals                 21

                        Cases accepted for criminal prosecution                            31

                        Cases accepted for civil action                                    11

                        Successful criminal prosecutions                                   32

                        Civil settlements                                                   3

                        Contractors/individuals debarred                                   28

                        Contractors/individuals suspended                                  31

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            32




                                                                        Office of Inspector General v
                                       Fiscal Year 2003 Results




                                       During Fiscal Year (FY) 2003, OIG activities resulted in:

                                       • Over $90 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • 165 audit reports that assisted management in making sound decisions
                                         regarding Agency operations.

                                       • $147 million in management decisions agreeing with audit
                                         recommendations; civil settlements; and court-ordered, audit, and
                                         investigative recoveries.

                                       • 194 new investigations opened and 196 cases closed.

                                       • 51 case referrals (86 subjects) accepted for criminal prosecution and
                                         21 case referrals (35 subjects) accepted for civil litigation.

                                       • 43 criminal indictments/informations and 51 successful prosecutions on
                                         criminal matters referred.

                                       • 5 civil settlements.

                                       • 34 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 52 contractor/individual suspensions and 73 contractor/individual
                                         debarments.

                                       • 320 legislative matters and 52 regulations and directives reviewed.

                                       • 1,945 Hotline calls and letters received of which 319 warranted further
                                         GSA action.




vi Semiannual Report to the Congress
                          Executive Summary




                        During this period, the OIG continued to direct its audit, investigative, and
                        evaluative resources to address what we believe to be the major
                        management challenges facing the Agency. We provided a variety of
                        traditional services, including program evaluations; contract and financial
                        auditing; management control reviews; and investigative coverage and
                        litigation support in contract claims, civil fraud and enforcement actions,
                        and criminal prosecutions. We also continued to provide professional
                        assistance services and reviews of proposed legislation and regulations.

                        Management Challenges
                        We have highlighted a number of reviews that address major
                        management issues facing GSA. We continued our work in addressing
                        these challenges, making recommendations, and working with
                        management to improve Agency operations. During this period, our
                        efforts included work focusing on procurement activities, information
                        technology (IT), management controls, and the protection of Federal
                        facilities and personnel. In addition, we identified a new management
                        challenge facing GSA — contract management. Our recent audit work
                        reveals a growing number of signs pointing to the need for better
                        management of the contract process that in FY 2002 added $13 billion to
                        GSA’s contract inventory. The Administrator and senior management
                        were briefed on these findings and subsequently, at the Administrator’s
                        direction, a Project Action Team was formed to assess the extent of the
                        problems and formulate means to remedy them.

                        Procurement Activities
                        In the previous semiannual report, we highlighted an ongoing audit of the
                        Federal Technology Service (FTS) Client Support Centers. Because we
                        had significant concerns with improper contracting practices and the
 Improper contracting   misuse of the Information Technology Fund, we issued an Alert Report to
                        management for its immediate attention. Our initial review of FTS Client
                        Support Centers has continued, with more problems identified, and we
                        expect to issue a detailed report of the Client Support Centers in three
                        regions during the next semiannual period. In light of the serious nature
                        of the findings, at management’s request we are expanding our review to
                        cover all Centers throughout the nation (page 2).

                        Professional services procurements from the Federal Supply Service
                        (FSS) Multiple Award Schedule (MAS) program have increased in recent
Professional services   years from $6.9 billion in FY 2000 to $12.7 billion in FY 2002. The OIG
   procurements         surveyed several agencies regarding their use of MAS contracts to
                        procure professional services to determine whether task orders are
                        awarded based on a firm-fixed price or a time-and-materials basis and to
                        obtain other information on pricing for services procurements under MAS
                        contracts. We found that only one-third of MAS task orders were priced
                        on a firm-fixed price basis, with the remainder being priced largely on a
                        time-and-materials/not-to-exceed basis. With respect to pricing, we found

                                                                         Office of Inspector General vii
                                           Executive Summary




                                         that just 40 percent of all task orders with values above the maximum
                                         order limits — the point at which agencies should be seeking better
                                         discounts — involved better pricing than GSA negotiated rates. We
                                         expect to do more detailed audit work, which will build upon this initial
                                         audit survey, in the areas of ordering, pricing, and cost growth (page 2).

                                         Contract Management
                                         An audit of the administration of performance-based services contracts in
                                         the Public Buildings Service (PBS) identified an absence of enforcing the
 Administration of services              terms and conditions of the contracts, accountability for contract
         contracts                       administration, and lack of security clearances for contractor employees.
                                         As a result, the government did not receive the quality of services,
                                         maintenance records, and security information specified in the contracts;
                                         and equipment was not maintained properly, which in a few cases,
                                         impacted the safety of building occupants (page 4).

                                         While conducting an audit of a regional PBS Service Center, we identified
                                         potential problems with a support services contractor. In our review of
 Procurement deficiencies                this contractor, we determined that PBS was not ensuring compliance
                                         with contract provisions. Because of the nature of the problems found,
                                         we believe similar services contracts are likely to have similar issues
                                         (page 5).

                                         Information Technology
                                         Since 1980, the Federal Supply Service (FSS) has used an automated
                                         supply management computer system known as FSS-19 to process and
                                         manage about $6 billion each year of orders, produce shipping
                                         documents, replenish inventory, and bill customers. In 1998, FSS began
                                         online operations and is converting some existing FSS-19 functions to the
  FSS-19 and FSS Online                  new Online system as well as adding new capabilities, such as
                                         automating contract information and associated amendments or
                                         cancellations. These changes have brought benefits, including real-time
                                         updating to the database; however, we found several areas of risk that
                                         require management’s attention. We recommended that FSS officials
                                         develop specific system performance goals and metrics; develop a long-
                                         term plan to identify system development goals, costs, and processes for
                                         converting or creating functionality; and manage system security
                                         weaknesses through a Security Plan of Action and Milestones (page 7).

                                         The Inventory Reporting Information System (IRIS) is a database used by
    Repair and Alteration                PBS to help manage its Repair and Alteration (R&A) Program. The
    Program information                  information recorded in IRIS for more than $7 billion in work items
                                         enables management to make decisions regarding the investment in,




viii Semiannual Report to the Congress
                           Executive Summary




                         repair, and/or disposal of building assets. Thus, it is imperative that the
                         data in IRIS be reliable. An audit of IRIS was performed to determine if
                         the data currently contained in the IRIS database were accurate and
                         complete, and to evaluate internal controls over data entry, processing,
                         and removal. We found problems with data accuracy and controls over
                         entry, processing, and removal of data (page 8).

                         We performed an independent evaluation of GSA’s agency-wide
                         information security program and controls as required by the Federal
                         Information Security Management Act (FISMA). In our annual review, we
                         found that GSA is making progress in developing its agency-wide IT
 IT Security Program     Security Program and an agency-wide Plan of Action and Milestones
                         (POA&M) process. However, key IT security tasks required by FISMA
                         remain to be completed. System-level POA&Ms tools are not
                         consistently used to track and correct identified security weaknesses.
                         Overall, GSA’s IT Security Program does not yet ensure that Services
                         and Staff Offices across GSA consistently and effectively implement
                         FISMA requirements and agency-wide guidance and processes (page 9).

                         Management Controls
                         In the past several semiannual reports, we have highlighted our concerns
                         over the continued non-adherence to controls over the use of travel and
                         purchase cards. Reports issued this period demonstrate a marked
                         improvement over prior periods although minor problems continue. Our
                         reviews of purchase card usage in GSA Staff Offices generally found
Purchase card usage
                         compliance with regulations and thus contained no formal
                         recommendations. However, individual audits did raise some issues that
                         management should address. Such issues included cardholders failing to
                         maintain proper purchase logs and adequate records, failing to reconcile
                         their purchases on a regular basis, paying sales taxes on purchases for
                         which the government is exempt, splitting purchase orders to stay within
                         the single purchase limits, and using more costly convenience checks
                         when other payment forms were available (page 10).

                         The OIG completed reviews during this period covering secured item
                         inventory, vehicle maintenance and repair costs, and construction project
                         funding limitations.

                         • Security measures to control the highly pilferable item inventory at the
                           Eastern Distribution Center in Burlington, New Jersey need to be
Secured item inventory     improved. Over the last 18 months, inventories of 83 sensitive items
                           showed over $417,000 in shortages, some of which may be due to
                           theft (page 11).




                                                                          Office of Inspector General ix
                                        Executive Summary




                                      • GSA Fleet manages the acquisition, leasing, maintenance, and repair
                                        of about 186,000 vehicles used by Federal agencies throughout the
                                        United States and parts of Europe. Fleet established the National
 Fleet maintenance control              Maintenance Control Center to procure repairs from vendors. Although
          center                        Fleet’s maintenance and repair costs compare favorably to data
                                        reported by organizations focusing on general consumers, the costs
                                        are higher than comparable data from commercial fleet operators
                                        (page 11).

                                      • A courthouse construction project experienced cost growth exceeding
                                        the original estimated construction amount by over 50 percent. We
                                        analyzed how project costs compared to Congressionally approved
 Courthouse construction                spending limitations on one particular project, and whether control
         project                        procedures need to be strengthened to ensure compliance with
                                        prospectus limitations. While subsequent Congressional
                                        appropriations provided adequate funding, we were concerned that
                                        some costs that should be counted against the PBS construction
                                        budgets were instead paid from the Judgment Fund, from which
                                        judgments and settlements against the United States are paid
                                        (page 12).

                                      Protection of Federal Facilities and Personnel
                                      GSA policy requires that all contractor employees pass a background
                                      suitability check in order to work in GSA-controlled buildings. In a
                                      nationwide audit of building services contracts, we found that a significant
Security clearance process
                                      number of contract employees did not have proper security clearances.
                                      These included employees of janitorial, elevator maintenance, and
                                      building maintenance contractors. Of the 807 contractor employees
                                      sampled, 229 (28 percent) lacked full security clearances. Not ensuring
                                      that contract employees have proper security clearances places
                                      employees, visitors, and the physical assets at risk (page 13).

                                      GSA also requires that employees and contractors undergo background
                                      screenings prior to gaining access to Agency computer systems
                                      containing sensitive information. Contractors who design, operate, test,
                                      maintain, and/or monitor GSA systems are required to have a background
                                      investigation consisting of at least a National Agency Check and Inquiries
                                      Credit (NACIC) review. In our review of the FSS-19 and FSS Online
                                      systems, we found that as of August 2003, only 30 of the 320 contractor
                                      employees with access to the systems have completed NACIC
                                      investigations. Not conducting these investigations may have increased
                                      the possibility of vulnerabilities and security risks for the systems
                                      (page 14).




x Semiannual Report to the Congress
  Executive Summary




Promoting and Protecting Integrity
In our ongoing efforts to promote and protect the integrity of GSA’s
programs and operations, we aggressively conduct investigations and
pursue the prosecution of individuals and companies committing criminal
and civil fraud and other offenses that impact GSA programs. A number
of these investigations have led to enforcement actions during this
semiannual period, including:

• The government settled a civil fraud case with Sprint Corporation for
  $5.6 million based on overcharging the government on the FTS 2001
  contract (page 15).

• As a member of a task force to combat charge card fraud, the OIG’s
  Office of Investigations participated in a joint investigation that resulted
  in the arrest of ten individuals who were fraudulently using federally-
  issued fuel charge cards to purchase large amounts of fuel (page 15).

• As the result of an OIG investigation of corruption within the PBS
  construction program, three contractors pled guilty to bribery charges
  on GSA construction projects (page 16).

• An ongoing investigation of the misuse of GSA-issued fleet charge
  cards resulted in the sentencing of six individuals, including two GSA
  employees, during this reporting period with restitution totaling over
  $30,000 (page 16).

• A GSA employee was sentenced to three years probation and ordered
  to pay restitution of $59,127 for using her government charge card to
  make payments on her personal credit card debt (page 17).

• GSA proposed MCI/WorldCom for debarment based on findings that
  the company had materially overstated its income on financial
  statements by approximately $9 billion (page 17).

• A missing John Sloan painting, produced under the WPA and currently
  valued at over $300,000, was recovered from an individual who was
  attempting to sell it at auction (page 18).

• A Department of Defense employee was sentenced to 39 months
  incarceration, three years probation, and ordered to pay restitution of
  $383,605 for using a GSA contract to unlawfully purchase computers
  (page 18).

• MVM, Inc. agreed to pay $67,500 to settle a civil fraud claim as it
  pertained to security services in Federal buildings in the northeast
  (page 18).



                                                  Office of Inspector General xi
                                          Executive Summary




                                        • A GSA building manager pled guilty to theft of government property
                                          and was sentenced to five years probation, 20 hours of community
                                          service, and ordered to pay restitution of nearly $10,000 (page 19).

                                        • A GSA employee stole seven laptop computers from a U.S.
                                          Courthouse in Philadelphia and then sold them. He was sentenced to
                                          two years probation and ordered to pay restitution (page 19).

                                        • An employee of a security guard company was sentenced to three
                                          years probation and ordered to pay restitution after pleading guilty to
                                          conspiracy to submit false bills to the government (page 19).

                                        • Four individuals, including a former GSA employee, were found guilty
                                          of conspiracy to commit fraud in a case of “identity theft” where
                                          personal and credit information of GSA employees were improperly
                                          obtained and used (page 19).

                                        Summary of Results
                                        The OIG made over $37 million in financial recommendations to better
                                        use government funds; made 294 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 220 legislative and
                                        regulatory actions; and received 1,028 Hotline calls and letters. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $45 million. (See page v for a summary of this period’s
                                        performance.)




xii Semiannual Report to the Congress
                                        OIG Organization Chart




                                            Inspector General
     Office of Counsel to the IG
                                            Daniel R. Levinson      Office of Internal Evaluation
          Kathleen S. Tighe                                              James A. Amoroso
          Counsel to the IG              Deputy Inspector General              Director
                                              Joel S. Gallay


 Office of Administration                      Office of Audits            Office of Investigations
     John C. Lebo, Jr.                        Eugene L. Waszily             James E. Henderson
  AIG for Administration                       AIG for Auditing             AIG for Investigations

        Human                                     Audit                           Field Support
       Resources                               Operations &
        Division                               Administration
                                                                                  Zone Offices
                                                                                Washington, D.C.
       Information                               Information                       New York
       Technology                                Technology                        Chicago
         Division                                Audit Office                     Fort Worth
                                                                                 San Francisco

     Administrative                                 Real
      & Financial                                 Property                             Sub-Offices
     Management                                  Audit Office                          Philadelphia
       Division                                                                          Boston
                                                                                       Kansas City
                                               Finance & Staff                           Atlanta
                                                   Offices                              Cleveland
                                                 Audit Office                          Auburn (WA)

                                                 Acquisition
                                                 Audit Office

                                                 Field Audit
                                                   Offices
                                               Washington, D.C.
                                                   Boston
                                                  New York
                                                 Philadelphia
                                                   Atlanta
                                                   Chicago
                                                 Kansas City
                                                  Fort Worth
                                                San Francisco


                                                       Sub-Office
                                                      Auburn (WA)




xiv Semiannual Report to the Congress
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, assessment of management
                        controls, and financial and compliance audits. The office also conducts
                        external reviews in support of GSA contracting officials to ensure fair
                        contract prices and adherence to contract terms and conditions. The
                        office additionally provides research, benchmarking, and other services
                        to assist Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review and Congressional liaison functions.

                      • The Office of Internal Evaluation, an analytical staff that provides
                        coverage of OIG operations primarily through management
                        assessments, and conducts internal investigations and reviews at the
                        direction of the Inspector General.

                      • The Office of Administration, which provides information technology
                        systems, budgetary, administrative, personnel, and communications
                        services.

                      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
Office Locations      Building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are maintained in Auburn
                      and Cleveland. (A contact list of OIG offices and key officials is provided
                      in Appendix VI.)

Staffing and Budget   As of September 30, 2003, our on-board strength was 278 employees.
                      The OIG’s Fiscal Year (FY) 2003 budget was $37.5 million.




                                                                       Office of Inspector General 1
                                      Management Challenges




                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges
                                      facing the Agency. (The current list is summarized on the front inside
                                      cover.) This period we continued our work in addressing these
                                      challenges, making recommendations, and working with management to
                                      improve Agency operations. The following sections highlight our activities
                                      in these areas.

                                      Procurement Activities
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews
                                      of these activities to ensure that the taxpayers’ interests are protected.

                                      Improper Contracting Update
                                      In the previous semiannual report, we highlighted an ongoing audit of the
                                      Federal Technology Service (FTS) Client Support Centers. Because we
  Misuse of IT Fund,                  had significant concerns with improper contracting and the misuse of the
       abuse of                       Information Technology Fund, we issued an Alert Report to management
                                      for its immediate attention. The report cited FTS’ use of Small Business
     contracting                      Administration 8(a) contracts for information technology services to obtain
   authority at FTS                   construction and architectural services; use of the sole source provisions
    Client Support                    of the small business program to avoid competition; and improperly
                                      splitting procurements to ensure task orders stayed below the sole source
       Centers.                       threshold. Subsequently, the Alert Report has received Congressional
                                      and media attention.

                                      Our initial review of FTS Client Support Centers has continued and we
                                      expect to issue a detailed report covering the Client Support Centers in
                                      three regions during the next semiannual period. Because of the
                                      significance of the deficiencies found to date, management has asked
                                      that we expand our review to include Client Support Centers throughout
                                      the nation. These reviews will be performed during FY 2004.

                                      Procurement of Professional Services from the Multiple Award
                                      Schedules
                                      Professional services procurements from the Federal Supply Service
                                      (FSS) Multiple Award Schedule (MAS) program have increased in recent
                                      years from $6.9 billion in FY 2000 to $12.7 billion in FY 2002. Audit
                                      reports issued by the General Accounting Office, the Department of
                                      Defense OIG, and the National Aeronautics and Space Administration
                                      OIG have identified problems and concerns with task order competition
                                      and pricing. Additionally, recent proposed legislation and acquisition
                                      regulations relate to and may impact aspects of MAS services purchases,
                                      specifically the use of time-and-materials task orders for such purchases.




2 Semiannual Report to the Congress
                       Management Challenges




                       Procurement Activities (continued)

                       The OIG surveyed several agencies regarding their use of MAS contracts
                       to procure professional services, including information technology
                       services.

Survey finds almost    One purpose of the survey was to determine whether task orders are
 two-thirds of MAS     awarded based on a firm-fixed price or time-and-materials basis. Time-
                       and-materials vehicles are disfavored by the Federal Acquisition
    services task      Regulation (FAR) because agencies essentially just buy labor hours
  orders are priced    under them; the vendor under a time-and-materials task order has no
   on a time-and-      positive profit incentive to control costs or to use labor efficiently. In
                       contrast, under firm-fixed price task orders, vendors assume much more
   materials basis,    performance risk. The FAR provides that time-and-materials vehicles can
  thus shifting the    only be used if the contracting officer makes a determination that he or
risk of performance    she cannot estimate the extent of the work with any reasonable degree of
                       confidence.
to the government.
                       The survey also examined pricing under services task orders. The FAR
                       requires that Federal agencies seek better prices and rates on MAS
                       purchases over a certain specified maximum order threshold.

                       We distributed over 5,000 surveys to contracting officials in four customer
                       agencies and received nearly 2,000 responses pertaining to services task
                       orders totaling $2.4 billion. We found that only one-third of MAS task
                       orders were priced on a firm-fixed price basis, with the remainder being
                       priced largely on a time-and-materials/not-to-exceed basis. With respect
                       to pricing, the audit found that 29 percent of all task orders reflected
                       better pricing than negotiated GSA pricing. For task orders with values
                       above the maximum order amount (generally $1 million), the audit found
                       that 40 percent involved better pricing than GSA rates; for those task
                       orders with a value greater than $10 million, better pricing was obtained
                       on 54 percent of them.

                       In our July 31, 2003 report, we concluded that due to potential cost
                       growth problems associated with time-and-materials orders, contracting
Ordering agencies      officials need to ensure these vehicles are appropriate for their orders
should do more to      and provide adequate oversight. We also concluded that contracting
                       officials should routinely seek price discounts on large dollar task orders
obtain better prices   and blanket purchase agreements. We encouraged the FSS
on high dollar MAS     Commissioner to continue to assist customer agencies through training
   task orders.        and marketing efforts, to more effectively leverage their purchasing power
                       by selecting types of task orders that improve pricing and competition.
                       The Commissioner related that FSS has efforts underway to improve and
                       increase training for users of MAS contracts.

                       We expect to do more detailed audit work, which will build upon this initial
                       audit survey, in the areas of ordering, pricing, and cost growth.

                                                                        Office of Inspector General 3
                                      Management Challenges




                                      Contract Management
                                      Last year, we reported our concern that contract administration
                                      deficiencies were appearing more frequently in our audits. We have now
                                      concluded however, that the issue is broader than just deficiencies in
                                      administering existing contracts. Our recent audit work reveals a growing
                                      number of signs pointing to the need for better management of the overall
                                      contract process that in FY 2002 added $13 billion to GSA’s contract
                                      inventory. Accordingly, this period we added Contract Management to the
                                      list of major management challenges facing GSA. We presented
                                      briefings to the Administrator and the entire senior management cadre on
                                      the nature and background of our findings and the reasons for adding it to
                                      the management challenges list. Following our briefing, the Administrator
                                      directed that a Project Action Team be convened to assess the extent of
                                      the problem and the need for corrective action. This issue will also be
                                      included in the formal listing of management challenges as part of the
                                      Agency’s Annual Report to Congress.

                                      Oversight of Performance-Based Contracts
                                      The Public Buildings Service (PBS) is making extensive use of
                                      performance-based services contracting to provide services such as
                                      mechanical maintenance, elevator maintenance, and cleaning services
                                      for the buildings it owns and operates. However, an audit of PBS’
                                      administration of these contracts identified problems with the enforcement
                                      of the terms and conditions of the contracts as well as problems with
                                      accountability for contract administration and a lack of security clearances
                                      for contractor employees.

                                      While we found that quality services are being provided by contractors at
     PBS needs to                     many locations, PBS needs to improve its monitoring and enforcement of
      improve its                     the terms and conditions for performance-based services contracts to
                                      achieve more consistent results. At some locations, PBS was not
      oversight of
                                      enforcing the terms of the contracts and, as a result, the government did
  performance-based                   not receive the quality of services, maintenance, and security specified.
  contracts to ensure                 There were often questions as to who was accountable for contract
                                      administration and what their duties were, as well as problems resulting
   proper equipment
                                      from inadequate government monitoring of contractors’ efforts.
   maintenance and
  safety inspections.                 Our review disclosed that:

                                      • Contractors did not always develop and implement the quality control
                                        plans required by the contracts to ensure that services were provided
                                        at the levels specified.

                                      • PBS did not always have in place an effective quality assurance
                                        surveillance plan to measure contractor performance.



4 Semiannual Report to the Congress
Management Challenges




Contract Management (continued)

• Maintenance records were not always prepared and maintained.

• Critical building operating equipment — such as air handlers,
  elevators, and boilers — was not properly maintained and required
  safety inspections were not performed, impacting on the operational
  readiness of equipment and the safety of building occupants.

• Many contract employees lacked current security clearances.

In our September 30, 2003 report, we recommended that PBS not allow
contractors to begin work until required quality control plans, maintenance
schedules, and security clearance information are provided to the
contracting officer or a designated representative. In addition, contracting
officials should review and certify all required reports and monitor the
status of security clearances for contractor employees. Finally, in order to
ensure better accountability, contracting officers’ representatives should
be designated in writing and have clear and concise instructions on the
requirements of performance-based services contracts.

The PBS Commissioner generally concurred with the findings and
recommendations in the report, which is still in the resolution process.

Procurement Deficiencies
While conducting an audit of a regional PBS Service Center, we identified
potential problems with a support services contractor. In our detailed
review of this contractor, we determined that PBS was not ensuring
compliance with contract provisions, that the contractor had been
reimbursed for unauthorized travel costs, and that labor rate increases
agreed to in option year renewals were not adequately supported. We
also observed that the contract met many of the criteria of a personal
services contract, which is prohibited by law. Given the nature of the
problems we identified, we believe similar contracts awarded in the region
might have similar issues.

In our August 21, 2003 report, we recommended that regional
management instruct contracting personnel to correct the identified
deficiencies and review other support services contracts to ensure that
they are being administered in accordance with contract provisions. We
also recommended that regional management and legal counsel evaluate
whether the use of the contract was in violation of specific laws and/or
regulations related to personal services. The Regional Administrator
concurred with our audit recommendations and has initiated corrective
action.




                                                 Office of Inspector General 5
                                      Management Challenges




                                      Contract Management (continued)

                                      Qualification Standards for Acquisition Personnel
                                      After passage of the Clinger-Cohen Act of 1996, the Office of Personnel
                                      Management (OPM) issued new qualification standards pertaining to the
                                      GS-1102 contract specialist position to ensure that the government’s
                                      acquisition personnel are qualified and competent to perform critical
                                      acquisition-related duties and tasks. GSA incorporated the new
                                      requirements into its acquisition manual, which includes the
                                      governmentwide core curriculum and continuing educational requirements
                                      for contracting officers. Our review assessed whether the Federal
                                      Technology Service (FTS) was ensuring that its acquisition personnel
                                      complied with the standards established by OPM and GSA in terms of
                                      education, mandatory course completion, and continuing educational
                                      requirements, particularly upon being hired or promoted to the GS-13
                                      level or higher.

                                      While the majority of the 71 acquisition personnel warrant files we
                                      reviewed showed compliance with OPM and GSA standards and
                                      requirements, we found exceptions where individuals who had been
                                      promoted to the GS-13 level or higher since the effective date of the new
                                      standards had not completed all of the core curriculum courses required
                                      by GSA policy. In addition, two individuals did not use the mandatory
                                      vendors when attending a core training course. We attributed these
                                      conditions to a lack of a clear understanding of warranted personnel
                                      training requirements.

                                      In our June 5, 2003 report, we recommended that the individuals
                                      responsible for administering the contracting officer warrant program
                                      throughout the Agency ensure that personnel are knowledgeable with
                                      respect to the qualification standards and educational/training
                                      requirements for warranted personnel, especially in those instances
                                      where hiring/promotion actions are being considered.

                                      Information Technology
                                      GSA is in the process of replacing a number of its old information
                                      systems to improve performance and take advantage of technological
                                      advances. Since GSA has had difficulty sharing usable data between
                                      systems, many of the new information technology (IT) projects are
                                      intended to go beyond automating current business functions and create
                                      real change in the way that GSA does business. However, development
                                      of new GSA systems has typically been characterized by schedule delays
                                      and cost overruns, the need for frequent redesign, and a prolonged
                                      period of time in development.



6 Semiannual Report to the Congress
                     Management Challenges




                     Information Technology (continued)

                     Federal Supply Service Automated Supply System (FSS-19) and
                     Online System Capabilities
                     Since 1980, the Federal Supply Service (FSS) has used an automated
                     supply system known as FSS-19 to support its procurement and supply
                     activities. The various system modules within FSS-19 process and
                     manage about $6 billion each year of orders, produce shipping
                     documents, replenish inventory, and bill customers. Starting in 1998, FSS
                     began online operations and is converting some existing FSS-19
                     functions to the new Online system as well as adding new capabilities,
                     such as automating contract information and associated amendments or
                     cancellations. These changes have brought benefits, including real-time
                     updating to the database; however, we found several areas of risk that
                     require management attention.
     FSS-19          While there are performance goals for FSS-19 that are tied to GSA’s
 modernization       strategic goals of operating efficiently and effectively, these goals are not
   efforts lack      system specific. Performance measures do not adequately track actual
                     system performance against planned metrics, such as progress in
     specific        converting portions of FSS-19 to the FSS Online system. A long-term
  performance        plan is needed for FSS-19 to identify system development goals, costs,
metrics, long-term   and processes for converting existing functions or creating new
                     capabilities.
     system
  improvement        We found that some security weaknesses for FSS-19 and FSS Online
   plans, and        identified in previous financial system audits and through the system
                     certification and accreditation process have not been corrected. FSS
 security action     should have a Security Plan of Action and Milestones to ensure that
      plans.         known weaknesses are prioritized, tracked, and managed and to help
                     ensure that system controls for FSS-19 and FSS Online are in place and
                     operating as intended. In addition, security documentation is lacking for
                     FSS Online, since documentation completed for FSS-19 does not include
                     FSS Online capability. Also, the security of data and connections
                     between FSS-19 and external systems needs to be strengthened by
                     developing interconnection service agreements, plans, and memoranda
                     of understanding. These documents are needed to identify the technical
                     requirements of an interconnection, responsibility of participating
                     organizations, and the process of establishing the interconnection, which
                     will help to ensure that security measures are taken to protect the
                     connected systems and shared data.

                     Finally, we noted that most of the contractors with access to the systems
                     do not have the required background investigation. This is discussed
                     further on page 14.




                                                                       Office of Inspector General 7
                                      Management Challenges




                                      Information Technology (continued)

                                      In our September 30, 2003 report, we recommended that the FSS
                                      Commissioner, with the assistance of the FSS Chief Information Officer,
                                      take the necessary actions to develop specific system performance goals
                                      and metrics; develop a long-term plan for FSS Online that includes future
                                      goals, processes, and costs; ensure that all identified security
                                      weaknesses are included and tracked in the Security Plan of Action and
                                      Milestones; develop system interconnection agreements; and complete
                                      background investigations for system contractors.

                                      The FSS Commissioner and CIO generally concurred with our findings
                                      and recommendations. The audit is in the resolution process.

                                      Managing the Repair and Alteration Program
                                      The Inventory Reporting Information System (IRIS) is a database used by
                                      the Public Buildings Service (PBS) to help manage its Repair and
                                      Alteration (R&A) Program. IRIS is used both nationally and regionally to
                                      track project status through the design and construction phases, to plan
                                      multi-year projects, and to keep current building inventory status by
                                      documenting and scheduling R&A needs. The information recorded in
                                      IRIS for more than $7 billion in work items enables management to make
                                      decisions regarding the investment in, repair, and/or disposal of building
                                      assets. Thus, it is imperative that the data in IRIS be reliable.

                                      The OIG’s audit of IRIS was performed to determine if the data currently
     Database for                     contained in the IRIS database were accurate and complete, and to
                                      evaluate internal controls over data entry, processing, and removal. We
 tracking Repair and                  found a number of data accuracy problems, and that the controls over
 Alteration Program                   entry, processing, and removal of data do not adequately ensure that
  information is not                  information is timely or consistent. The overall cause for inaccuracies is
                                      that PBS project managers do not communicate timely, valid, and
       reliable.                      consistent information to update the IRIS database. There are no
                                      performance measures tied to timely updates and data quality control.

                                      Inaccurate IRIS data can significantly impair PBS’ ability to make effective
                                      management decisions regarding the investment, repair, or disposal of
                                      assets; the inception, postponement, or cancellation of projects; and the
                                      transfer of completed projects for depreciation. In our September 30,
                                      2003 report, we recommended that PBS continue developing national
                                      IRIS guidance to stress the importance of data accuracy and timeliness.
                                      This guidance must incorporate both management controls and
                                      performance measures and must be effectively communicated to all
                                      levels of personnel.




8 Semiannual Report to the Congress
                     Management Challenges




                     Information Technology (continued)

                     The PBS Commissioner fully agreed with our report and noted current
                     and planned work that should address the audit findings and
                     recommendation. The report is in the resolution process.

                     GSA’s Information Security Program
                     We performed an independent evaluation of GSA’s agency-wide
                     information security program and controls as required by the Federal
                     Information Security Management Act (FISMA). FISMA provides a
                     framework for securing Federal information systems including: (1)
                     ensuring the effectiveness of information security controls over
                     information resources; (2) development and maintenance of minimum
                     controls required to protect Federal information and information systems;
                     and (3) a mechanism for improved oversight of Agency Information
                     Security Programs.

                     In our annual review, we found that GSA is making progress in
                     implementing its agency-wide IT Security Program and an agency-wide
                     Plan of Action and Milestones (POA&M) process. The Chief Information
                     Officer (CIO) administers all functions covered by FISMA, has designated
                     a Senior Agency Information Security Officer, and has established a
                     Security Division within the Office of the CIO to provide leadership for the
                     Program. New measures initiated by the CIO to secure the Agency’s
                     systems include technical vulnerability scanning and “war dialing” — a
                     program used by systems administrators to identify unauthorized
                     modems on a network that could provide easy access (by hackers) to the
                     organization’s Intranet. However, we found that key IT security tasks
                     required by FISMA still remain to be completed.

                     System-level POA&Ms have recently been developed but are not
                     consistently used to track and correct identified security weaknesses.
  Key IT security    Vulnerability scans we performed on select GSA systems found new
                     security weaknesses, as well as some previously identified by system
 tasks required by   owners, that were not included in system-level POA&Ms. System security
FISMA remain to be   officials have not consistently ensured that important system security
    completed.       documentation is complete and consistent with recommended practices
                     or agency-wide IT security policy. For the five select systems we
                     reviewed, key security documentation — including risk assessments,
                     security plans, certification and accreditation packages, and contingency
                     plans — was not consistently updated or completed. Not all Agency
                     employees with significant security responsibilities had completed
                     specialized security training required by FISMA and provided by the CIO.
                     Further, contractors were granted access to these systems without
                     appropriate background investigations.




                                                                      Office of Inspector General 9
                                       Management Challenges




                                       Information Technology (continued)

                                       Overall, GSA’s IT Security Program does not yet ensure that Services
                                       and Staff Offices across GSA consistently and effectively implement
                                       FISMA requirements and agency-wide guidance and processes provided
                                       by the CIO Security Division. Improved oversight of Service and Staff
                                       Offices’ implementation of GSA’s IT Security Program is a necessary step
                                       toward ensuring that all individuals responsible for IT security within
                                       Agency components actually follow established information system
                                       security policies and procedures.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have
                                       been replaced, through streamlining efforts, by fewer and broader
                                       controls, making it essential that the remaining control processes be
                                       emphasized and consistently followed. Streamlined processes have
                                       helped GSA achieve its goal of serving customers more quickly and
                                       efficiently; however, the Agency is exposed to the risk of mismanagement
                                       and abuse if program officials do not ensure the faithful application of
                                       existing safeguards.

                                       Purchase Card Usage
                                       In the past several semiannual reports, we have highlighted our concerns
                                       over the continued failure to adhere to controls over the use of travel and
                                       purchase cards. In prior reviews, we identified a variety of questionable
                                       purchases and inappropriate use of cards in several regions, and
   Adherence to                        situations where approving officials should have questioned the actions of
   purchase card                       the cardholders. Reports issued this period demonstrate a marked
 controls improves.                    improvement over prior periods, although some relatively minor problems
                                       continue. While we commend the Agency for the progress it has made to
                                       strengthen adherence to purchase card controls, we emphasize the need
                                       for constant vigilance in monitoring this vulnerable $200 million annual
                                       activity.

                                       In an audit of one region’s purchase card usage this period, we
                                       determined that inappropriate purchases of flowers and gift baskets were
                                       made for the purpose of enhancing customer satisfaction surveys.
                                       Further, we found cardholders splitting orders to stay within the single
                                       purchase limits, paying sales taxes on purchases for which the
                                       government is exempt, using other than established supply sources, and
                                       using more costly convenience checks when other payment forms were
                                       available. We also reviewed purchase card usage in the GSA Staff
                                       Offices where we found sales tax payments and the use of costly
                                       convenience checks as well, although the latter was done at the request
                                       of the approving official, to circumvent the cardholder’s purchase



10 Semiannual Report to the Congress
                     Management Challenges




                     Management Controls (continued)

                     limitation. Finally, we saw that Staff Office cardholders failed to keep
                     proper purchase logs and adequate records, or failed to reconcile their
                     purchases on a regular basis.

                     Since the completion of our audits, the CFO has posted updates on
                     GSA’s internal Web site reminding cardholders to avoid paying sales tax
                     and to take the mandatory purchase card refresher course on GSA
                     Online University. The CFO’s office and Citibank (GSA’s purchase card
                     provider) have put together approval guidelines to prevent the use of
                     convenience checks that exceed a cardholder’s spending limitations.
                     Additional guidance was also distributed in the regional office reminding
                     cardholders of the proper use of the cards.

                     Control Reviews
                     The OIG completed control reviews during the period covering a secured
                     item inventory, vehicle maintenance and repair costs, and construction
                     project funding limitations.

                     • Security measures to control the highly pilferable inventory at the
                       Eastern Distribution Center in Burlington, New Jersey need to be
                       improved. Over the last 18 months, inventories of 83 sensitive items
                       showed over $417,000 in shortages, some of which may be due to
                       theft. Although these items are kept in a security cage to prevent theft,
                       management has not adequately controlled access to the area. We
                       noted that unauthorized individuals were able to enter the secured area
                       without an escort, that the area controlled by a ten-foot high fence
                       could be easily accessed using a forklift, and that the security
                       combination keypad had not been changed in 18 months. The
                       Regional Administrator generally concurred with our findings and
                       recommendations and has begun corrective actions.

                     • GSA Fleet manages the acquisition, leasing, maintenance, and repair
                       of about 186,000 vehicles used by Federal agencies throughout the
The Fleet National     United States and parts of Europe. Fleet established the National
   Maintenance         Maintenance Control Center (NMCC) to procure repairs from vendors.
                       As a means for controlling maintenance and repair costs, the NMCC
 Control Center        determines the necessity and reasonableness of requested repairs
can’t measure its      over $100, which in FY 2002 exceed $73 million. During our audit of
 effectiveness at      the NMCC, we found a workforce dedicated to servicing customers,
                       with performance measures in place to assess NMCC’s response time
controlling costs.     to customers. However, NMCC cannot track its effectiveness at
                       controlling costs. Although Fleet’s maintenance and repair costs
                       compare favorably to data reported by organizations focusing on




                                                                    Office of Inspector General 11
                                       Management Challenges




                                         Management Controls (continued)

                                         general consumers, the costs are higher than comparable data from
                                         commercial fleet operators. To remain competitive and provide quality
                                         services to its customers, Fleet needs better measures of costs such
                                         as total and per mile maintenance and repair costs controlled by
                                         NMCC. Management agreed with our findings and is developing
                                         action plans to address our recommendations.

                                       • A courthouse construction project experienced cost growth exceeding
                                         the original estimated construction amount by over 50 percent. In a
                                         November 12, 2002 audit report, we analyzed the causes for numerous
                                         change orders and claims on several courthouses in one region. In
                                         this audit, we specifically analyzed how project costs compared to
     Construction                        Congressionally approved spending limitations on one particular
    change order                         project, and whether control procedures need to be strengthened to
                                         ensure compliance with prospectus limitations. While subsequent
   costs should not
                                         Congressional appropriations provided adequate funding, we were
   be paid from the                      concerned that some costs that should be counted against construction
   Judgment Fund.                        budgets were not paid from appropriated funds as part of the
                                         construction payments. Rather, costs associated with time extensions
                                         for change orders were improperly included as part of the construction
                                         contractor’s claim and were instead paid from the Judgment Fund
                                         (from which judgments or settlements against the United States are
                                         paid). In addition, PBS combined two separate prospectuses (one for
                                         site acquisition/design, the other for construction) to obtain greater cost
                                         escalation, a practice which we believe was inappropriate. The
                                         Regional Administrator agreed with our findings and will issue policy
                                         guidance to tighten controls on changes during construction projects.

                                       Help America Vote Act
                                       The Help America Vote Act of 2002 authorizes GSA to distribute
                                       $650 million to the 50 states, the District of Columbia, and the United
                                       States territories to be used for improving Federal election administration
  GSA successfully                     activities and replacing punch card or lever voting systems used in voting
                                       precincts during the November 2000 general elections. We found that
  administered the                     GSA disbursed funds in compliance with the Act.
  $650 million Help
  America Vote Act                     In administering disbursements under the Act, GSA ensured that chief
                                       state election officials had a web-based method to register, submit
       fund.                           Electronic Funds Transfer (EFT) data and certify that their states would
                                       comply with the provisions in the Act. GSA also established a
                                       methodology to verify the accuracy of submitted registration and EFT
                                       data. In addition, GSA developed a sound approach to allocate funds in
                                       accordance with the Act.




12 Semiannual Report to the Congress
                     Management Challenges




                     Management Controls (continued)

                     We did note that, as of July 31, 2003, the Office of the Chief Financial
                     Officer was still working on establishing repayment accounts for any
                     states that fail to replace punch card or lever voting systems in time for
                     the November 2004 general elections in accordance with the Act’s
                     provisions. We suggested that these accounts be established as soon as
                     possible.

                     Protection of Federal Facilities and Personnel
                     Providing a safe, healthful, and secure environment for over 1 million
                     workers and the visitors to over 8,300 owned and leased Federal facilities
                     nationwide is a major multifaceted responsibility of GSA. The increased
                     risks from terrorism have greatly expanded the range of vulnerabilities
                     traditionally faced by building operations personnel. In March 2003, the
                     Federal Protective Service (FPS) was transferred from GSA to the
                     Department of Homeland Security (DHS). While FPS is no longer part of
                     GSA, the Agency has a continual need to closely interact with security
                     personnel due to GSA’s mission of housing Federal agencies. GSA and
                     FPS/DHS operate under a Memorandum of Agreement for obtaining
                     services such as basic security for buildings, contract guards, law
                     enforcement, background suitability determinations for contractors
                     (including child care centers personnel), pre-lease security checks,
                     occupant emergency plan support, and continuity of operations support.
                     Ensuring that Federal employees have a secure work environment and
                     that building assets are adequately safeguarded must remain a primary
                     concern of GSA.

                     Security Clearance Process for Contractor Personnel
                     • Access to Buildings. GSA policy requires that all contractor
                       employees are required to pass a background suitability check in order
 Contractors are       to work in GSA-controlled buildings. In a nationwide audit of
  slow to submit       performance-based services contracts (previously discussed on
                       page 4), we found that a significant number of contract employees did
security clearance
                       not have proper security clearances. These included employees of
     forms for         janitorial, elevator maintenance, and building maintenance contractors.
   replacement
                       We selected a sample of 807 contractor employees in four regions. Of
employees. GSA         these, 229 (28 percent of our sample population) lacked full security
   officials must      clearances. We attributed this largely to turnover among contractor
    monitor the        employees and to contractors not submitting the required clearance
                       forms for replacement employees. We recommended improved
 clearance status      contract language to remind contractors of this requirement. We also
  of the contract      observed that property managers did not have current rosters of
    workforce.         contractor employees and often did not have adequate records of the
                       clearance status for each contractor employee.


                                                                    Office of Inspector General 13
                                       Management Challenges




                                       Protection of Federal Facilities and Personnel (continued)

                                         Not ensuring that contract employees have proper security clearances
                                         places employees, visitors, and the physical assets at risk. If PBS is to
                                         have assurance that contractor personnel meet security clearance
                                         requirements, contracting officials have to play a more active role in
                                         monitoring and enforcing contract requirements in this regard.

                                         In our September 30, 2003 report, we recommended that contracting
                                         officers or their representatives monitor the status of security
                                         clearances of contractor employees through the most effective means
                                         possible. Management agreed with our recommendation. The report
                                         is still in the resolution process.

                                       • Access to IT Systems. GSA also requires that employees and
                                         contractors undergo background screenings prior to gaining access to
                                         Agency computer systems containing sensitive information.
                                         Contractors who design, operate, test, maintain, and/or monitor GSA
                                         systems are required to have a background investigation consisting of
                                         at least a National Agency Check and Inquiries Credit (NACIC) review.
                                         In our review of the FSS-19 and FSS Online systems (previously
                                         discussed on page 7), we found that as of August 2003, only 30 of the
                                         320 contractor employees with access to the systems have completed
                                         NACIC investigations. Not conducting these investigations may have
                                         increased the possibility of vulnerabilities and security risks for the
                                         systems.

                                         In response to our report, the FSS Commissioner stated that the
                                         investigative process is currently underway and is being monitored for
                                         completion.




14 Semiannual Report to the Congress
                     Promoting and Protecting Integrity




                          GSA is responsible for providing working space for almost one million
                          Federal employees. The Agency also manages the transfer and disposal
                          of excess and surplus real and personal property and operates a
                          governmentwide service and supply system. To meet the needs of
                          customer agencies, GSA contracts for billions of dollars worth of
                          equipment, supplies, materials, and services each year. We conduct
                          reviews and investigations in all these areas to ensure the integrity of the
                          Agency’s financial statements, programs, and operations and that the
                          taxpayer’s interests are protected. In addition to detecting problems in
                          these GSA programs and operations, the OIG is responsible for initiating
                          actions to prevent fraud, waste, and abuse and to promote economy and
                          efficiency. When systemic issues are identified during investigations, they
                          are shared with GSA management for appropriate corrective actions.

                          Significant Criminal and Civil Actions
                          Sprint Corporation Settles False Claims Suit for $5.6 Million
                          The government reached a settlement with Sprint Corporation (Sprint) for
     Government           $5,556,250 that resolved allegations that the company had fraudulently
 resolved fraudulent      overcharged the government. The allegations arose out of a suit filed by
  overcharges claim       a whistleblower under the qui tam provisions of the False Claims Act.
                          The whistleblower had alleged that the company defrauded the
      with major          government on its GSA telecommunications contract. An audit and
telecommunications        investigation confirmed that Sprint overcharged the government on the
     provider for         FTS 2001 contract for the fees it was required to pay to local telephone
                          companies to help them recover the costs of providing necessary
     $5.6 million.        infrastructure.

                          Task Force Breaks Charge Card Ring
                          As part of an ongoing initiative to combat fraud associated with federally-
                          issued charge cards, special agents from the OIG’s Office of
                          Investigations, working with other Federal, state, and local law
                          enforcement organizations, participated in the arrests of ten individuals.
                          The task force investigation was initiated after it was discovered that
                          federally-issued fuel charge cards were being fraudulently used to
  Ten arrested in         purchase large amounts of fuel. The suspects used stolen charge card
                          numbers to illegally obtain fuel from gas stations. In conjunction with the
 charge card ring.        arrests, searches were conducted at several sites leading to the seizure
                          of thousands of gallons of stolen fuel, vehicles, stolen charge cards that
                          were used to purchase the fuel, equipment used to manufacture
                          fraudulent charge cards, and pumping devices used to store and
                          transport fuel.

                          The success of this investigation was greatly enhanced by the
                          cooperation and assistance the OIG received from GSA officials who
                          manage the charge card program.



                                                                          Office of Inspector General 15
                              Promoting and Protecting Integrity




                                       Three Contractors Plead Guilty to Bribery Charges
                                       As the result of an OIG investigation of corruption within the PBS
                                       construction program, two contractor executives pled guilty in U.S. District
                                       Court to bribery charges on GSA projects involving the construction of a
    Investigation                      Federal Courthouse and the renovation of a Post Office in Brooklyn. Both
  discloses $80,000                    the project executive and project manager on these construction projects
                                       pled guilty to Federal charges arising out of their receipt of bribes totaling
   bribery scheme.                     more than $80,000 from a subcontractor. Previously, the involved
                                       subcontractor pled guilty at U.S. District Court to a related charge of
                                       paying the bribes. The bribes were paid in exchange for assistance in
                                       securing a $5.5 million subcontract on the construction project. A
                                       recommendation for suspension of the three contractors has been
                                       forwarded to management.

                                       Fleet Charge Card Abuse
                                       The GSA OIG has an ongoing proactive investigative project to identify
                                       and investigate fraud associated with the misuse of GSA-issued fleet
                                       charge cards. During this period, cases developed resulted in the
                                       sentencing of two GSA employees and four other individuals for fraud
                                       associated with the program.

                                       In the first instance, a joint investigation by the OIG and Amtrak OIG
                                       involved suspicious purchases made with a GSA-issued fleet charge card
                                       at a gas station. The investigation determined that two Amtrak
    OIG continues                      employees were using a fleet card that had been assigned to vehicles
   efforts to pursue                   leased to Amtrak to purchase gas for their personal cars, to buy cases of
    misuse of fleet                    beverages, and to receive cash back from attendants at the gas station.
                                       Pursuant to a plea agreement, both employees pled guilty to theft of
     charge cards.                     government property and were sentenced in U.S. District Court to three
                                       years probation. The two Amtrak employees were terminated and
                                       ordered to pay restitution — one in the amount of $8,700 and the other in
                                       the amount of $5,220.

                                       In the second instance, an investigation revealed that a GSA employee
                                       was using a fleet card that had been assigned to vehicles leased to the
                                       Department of Labor to purchase gas for her personal car. The employee
                                       pled guilty to charge card abuse and was terminated. She was
                                       sentenced to six months incarceration, 36 months probation, and ordered
                                       to pay $10,400 in restitution.

                                       In the third instance, an investigation discovered that a GSA employee
                                       was using her fleet card to purchase gasoline for her personal car. The
                                       employee was terminated after pleading guilty to theft of government
                                       property. She was sentenced to one year probation and ordered to pay
                                       restitution.



16 Semiannual Report to the Congress
                 Promoting and Protecting Integrity




                      In the fourth instance, an investigation determined that a contract
                      employee with the Department of Commerce was using a fleet card to
                      purchase gasoline for his and his friend’s personal cars as well as other
                      nongovernment vehicles. His friend pled guilty to theft of government
                      property and was sentenced to 12 months probation and ordered to pay
                      restitution. The contract employee was terminated after pleading guilty to
                      theft of government property. He was sentenced to four months
                      incarceration, three months probation, and ordered to pay $6,342 in
                      restitution.

                      Fraudulent Use of Charge Card
                      An investigation was initiated when it was reported that a GSA employee
                      was misusing her government charge card. The investigation disclosed
                      that the employee was using the government charge card to make
                      payments on her personal credit card.

                      The GSA employee resigned from her position and pled guilty in U.S.
                      District Court to fraudulent use of a government charge card. She was
                      sentenced to three years probation and ordered to pay restitution of
                      $59,127. The issues identified during this investigation, including the lack
                      of internal controls on charge cards, were reported to GSA management.

                      Proposed Debarment of MCI/WorldCom
                      On June 2, 2003, the OIG recommended to GSA’s Office of Acquisition
                      Policy that it consider initiating suspension proceedings against
                      MCI/WorldCom and three individuals based on findings that the company
   GSA proposes
                      had materially overstated its income on financial statements by
debarment of major    approximately $9 billion. Fraud investigations by the Securities and
telecommunications    Exchange Commission (SEC) and the Department of Justice resulted in a
                      civil fraud settlement with the SEC and indictments of various company
 provider based on
                      officials. MCI/WorldCom provides Federal agencies with long-distance
    OIG referral.     voice and data services through GSA’s multi-billion dollar FTS 2001
                      contract. On July 8, 2003, the OIG followed up with a suspension
                      recommendation of the former chief executive officer of the company.

                      On July 31, 2003, the Office of Acquisition Policy proposed
                      MCI/WorldCom for debarment, effectively suspending the company from
                      receiving new Federal contracts pending a final determination on the
                      debarment. On the same date, the Office of Acquisition Policy
                      suspended the four individuals referred by the OIG. Two MCI corporate
                      officers had been suspended by that Office in November 2002 based on
                      prior Agency referrals.




                                                                      Office of Inspector General 17
                              Promoting and Protecting Integrity




                                       Recovery of WPA Artwork
                                       During the depths of the Great Depression, the Federal Government
                                       under the Works Progress Administration (WPA) (later renamed the Work
                                       Projects Administration) employed thousands of artists to create public
                                       art. As a result, numerous works of art adorned Federal Buildings
                                       throughout the nation. Since 1949, GSA has been the custodian of the
                                       WPA works of art. Some artists who got their start or worked under the
                                       program became renowned, and the works they created became quite
                                       valuable. In the 1990’s, GSA initiated a project to identify, locate, catalog,
                                       and recover lost/stolen WPA paintings.

                                       In 2001, to facilitate the recovery of missing artwork, a list of 136 pieces
                                       of lost/stolen artwork was developed by GSA fine arts specialists. This
    Missing WPA                        information was coordinated with the Department of Justice and listed in
 artwork recovered.                    a stolen art database maintained by the FBI. Fine arts dealers are
                                       required to check this database prior to the sale of any work of art.

                                       In August 2003, a John Sloan painting titled 14th Street at 6th Avenue
                                       (which is the property of GSA and part of the WPA project) was recovered
                                       from an individual who was attempting to sell it at auction. The value of
                                       the painting is estimated at over $300,000. The individual attempting to
                                       sell the painting stated that a relative found it in the trash on Capitol Hill
                                       numerous years ago. After final cataloging and appraisal, the painting will
                                       be sent to a museum for display. We continue to review and assist in the
                                       recovery of missing/stolen WPA artwork.

                                       DoD Employee Sentenced for False Claims and Mail Fraud
                                       A joint investigation by the OIG, the Defense Criminal Investigative
                                       Service (DCIS), and the U.S. Army/Criminal Investigations Division
                                       (USA/CID) revealed that a Department of Defense (DoD) employee had
                                       used government funds to unlawfully purchase computers. Under a GSA
                                       contract, the employee had the computers built by a local manufacturer
                                       and shipped to his brother’s address in Florida. He also had a high-
                                       speed data transmission fiber optic communication line (T1) installed at
                                       his personal residence. Installation and monthly service fees for the T1
                                       line were subsequently charged to the DoD contract.

                                       The DoD employee resigned and was sentenced in U.S. District Court on
                                       charges of submitting false claims and mail fraud. He was sentenced to
                                       39 months incarceration, three years probation, and ordered to pay
                                       restitution of $383,605.

                                       Security Company Settles Civil Fraud Claim
                                       An investigation found that MVM, Inc. (MVM), a contractor based in
                                       McLean, Virginia, billed Federal agencies in the northeast for the services
                                       of supervisory employees when those employees did not have the


18 Semiannual Report to the Congress
                  Promoting and Protecting Integrity




                       supervisory training required by the contract. MVM provides security
                       services in Federal buildings in the northeast. In a settlement negotiated
                       by the U.S. Attorney’s Office in Boston, MVM agreed to pay $67,500 to
                       resolve its potential False Claims Act liability. A recommendation for
                       suspension was forwarded to management.

                       Building Manager Sentenced for Theft of Government Property
                       An investigation revealed that a GSA building manager had used his
GSA building           official position to convert government property, such as carpet, Italian
  manager              marble, paint, furniture, wood, computers, and a chandelier for his own
                       use. The manager resigned his position with GSA and pled guilty in U.S.
sentenced for          District Court to theft of government property. He was sentenced to five
    theft.             years probation, 20 hours of community service, and ordered to pay
                       nearly $10,000 in restitution.

                       Employee Sentenced for Computer Theft
                       An investigation was initiated when it was reported that seven laptop
                       computers had been stolen from various rooms in the U.S. Courthouse in
                       Philadelphia. The investigation revealed that a GSA employee stole the
                       computers and sold them. The employee resigned his position with GSA
                       and pled guilty in U.S. District Court to the theft of government property.
                       He was sentenced to two years probation and ordered to pay restitution.

                       Security Guard Company Employee Pleads Guilty to Conspiracy
                       An investigation developed from an audit of security guard contracts
                       disclosed that several guards employed by Task Force Security and
                       Investigations (TFSI), a security company, did not receive required
                       training as certified in the training reports submitted to GSA under the
                       contract. Pursuant to a plea agreement with the U.S. Attorney’s Office,
                       an employee of the company pled guilty to conspiracy to submit false bills
                       to the government. He was sentenced to three years probation and
                       ordered to pay a fine. A recommendation for suspension of the company
                       and the individual has been forwarded to management.

                       Identity Theft
                       The OIG initiated an investigation after it was alleged that seven GSA
                       employees were victims of identity fraud. The investigation revealed that
 Former GSA            a former GSA employee had access to a list containing names, social
                       security numbers, and the dates of birth of seven GSA employees. This
   employee            information was provided to a private individual, who in turn supplied this
 convicted in          information to two of his friends. The friends used the information to
 identity theft        apply for credit cards and cellular phone service.

investigation.         The three individuals pled guilty to conspiracy to commit fraud. In
                       addition, after a trial, the former GSA employee was found guilty by jury
                       of bank fraud. Sentencing is scheduled for a later date.


                                                                       Office of Inspector General 19
                              Promoting and Protecting Integrity




                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate
                                       GSA employees on their responsibilities for the prevention of fraud and
                                       abuse and to reinforce employees’ roles in helping to ensure the integrity
                                       of Agency operations.

                                       This period, we presented 4 briefings attended by 195 regional
                                       employees. These briefings explain the statutory mission of the OIG and
                                       the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies, the briefings make GSA employees
                                       aware of actual instances of fraud in GSA and other Federal agencies
                                       and thus help to prevent their recurrence. GSA employees are the first
                                       line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings encourage employees to use the Hotline. We also
                                       developed and use our FraudNet Hotline platform to allow Internet
                                       reporting of suspected wrongdoing. During this reporting period, we
                                       received 1,028 Hotline reports. Of these, 151 complaints warranted
                                       further GSA action, 44 warranted other agency action, and 833 did not
                                       warrant action.

                                       Significant Preaward and Other Audits
                                       The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
    Preaward MAS                       nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting officers,
  and claims audits                    enabling them to significantly improve the government’s negotiating
       identified                      position and to realize millions of dollars in savings on negotiated
     $37 million in                    contracts. This period, the OIG performed preaward audits of
                                       40 contracts with an estimated value of $1.1 billion. The audit reports
  recommendations                      contained $37 million in financial recommendations.
   that funds be put
                                       Two of the more significant Multiple Award Schedule contracts we audited
     to better use.                    had projected governmentwide sales totaling $59 million. The audit
                                       findings recommended that $7.4 million in funds be put to better use.
                                       The audits disclosed that these vendors offered prices to GSA that were
                                       not as favorable as the prices other customers receive from these
                                       vendors.

                                       We audited a number of claims for increased costs for construction
                                       projects. Three of the more significant projects audited contained
                                       proposed amounts totaling $25 million, and our audits of the claims
                                       recommended adjustments of $14.6 million. Our audits of the prime
20 Semiannual Report to the Congress
Promoting and Protecting Integrity




     contractor and several subcontractors on one construction project found
     that the claimed amounts were not supported by the companies’ records.
     In other audits of claims for increased costs due to delays or changes, we
     adjusted costs because the claimed amounts were either overstated or
     unsupported.

     Financial Statement Audit and Related Reviews
     With the passage of the Chief Financial Officer’s Act of 1990, the
     Congress and the Office of Management and Budget have established a
     framework of financial audits and reviews designed to foster overall
     enhancement of the Federal Government’s financial management and
     reporting services.

     Internal Control Reviews
     The OIG, as part of its audit of the Agency’s financial statements,
     performed internal control assessments of the financial reporting for the
     Federal Systems Integration and Management Center (FEDSIM) and
     GSA’s payroll function.

     FEDSIM is one of three national Client Support Centers that help
     customer agencies acquire and use information systems and technology.
     It focuses on large-scale acquisition management and support, large-
     scale systems integration projects, office systems support, software
     management, and data center management. Our review of the revenue
     and disbursements cycles found that internal controls are in place to
     effectively and efficiently meet the desired control objectives. However,
     FEDSIM did not always adhere to these internal controls to ensure
     services were received, customer agencies were adequately billed, GSA
     payments complied with contract provisions, and the financial accounting
     system adequately processed transactions.

     The OIG reviewed GSA’s internal controls over the payroll function, which
     is performed at the National Payroll Center (NPC) located in the
     Heartland Finance Center. NPC uses the automated Payroll Accounting
     and Reporting System to process payroll for approximately
     26,000 employees at GSA and a number of independent agencies and
     presidential commissions. In our opinion, internal controls over the
     payroll functions are operating effectively and efficiently to meet control
     objectives.




                                                     Office of Inspector General 21
                               Governmentwide Policy Activities




                                       We regularly provide advice and assistance on governmentwide policy
                                       matters to the Agency, as well as to other Federal agencies and to
                                       committees of Congress. In addition, as required by the Inspector
                                       General Act of 1978, we review existing and proposed legislation and
                                       regulations to determine their effect on the economy and efficiency of the
                                       Agency’s programs and operations and on the prevention and detection
                                       of fraud and mismanagement. Because of the central management role
                                       of the Agency in shaping governmentwide policies and programs, most of
                                       the legislation and regulations reviewed invariably impact
                                       governmentwide issues in areas such as procurement, property
                                       management, travel, and government management and information
                                       technology systems.

                                       This period, we provided advice and assistance to the Office of
                                       Management and Budget (OMB) on various procurement policies issues,
                                       particularly in the area of time-and-materials or labor-hours and other
                                       services contracts.

Interagency                            In addition, we participated on a number of interagency committees and
                                       working groups that deal with cross-cutting and governmentwide issues:
Committees and
Working Groups                         • The AIG for Auditing represents all civilian government agencies on the
                                         Cost Accounting Standards Board, an independent board within OMB’s
                                         Office of Federal Procurement Policy, which promulgates, amends, and
                                         revises Cost Accounting Standards designed to achieve uniformity and
                                         consistency in cost accounting practices of individual government
                                         contractors.

                                       • The Counsel to the Inspector General has been participating on a
                                         working group sponsored by the Office of Federal Procurement Policy,
                                         part of OMB. At the request of the President to OMB, the working
                                         group is reviewing agency competition practices and how effectively
                                         they ensure access to government contracts.

                                       • The Assistant Inspector General (AIG) for Investigations serves as the
                                         Chair of the Assistant Inspectors General for Investigations
                                         Subcommittee. This subcommittee reports to the PCIE Investigative
                                         Committee. The subcommittee deals with investigative issues that
                                         affect all OIG Offices of Investigations, such as statutory law
                                         enforcement, peer review, and coordinated assistance to the
                                         Department of Justice.

                                       • OIG audit representatives participate in the PCIE IT Roundtable to
                                         address specialized security training and overall IT security issues
                                         based on IT information security audits.




22 Semiannual Report to the Congress
Governmentwide Policy Activities




    • GSA’s Office of Governmentwide Policy has convened a
      Governmentwide Per Diem Advisory Board composed of industry travel
      experts as well as public and private sector travel managers. The
      Board reviewed the process and methodology used to establish the
      Federal Per Diem rates within the Continental United States. The OIG
      provided support for the Board’s subcommittee that reviewed the per
      diem rate-setting process and the methodology for meals, lodging, and
      incidental expenses. A second subcommittee presented
      recommendations for a nationwide government-lodging program. As a
      result of the Board’s work and recommendations, per diem rates in the
      future are to be based on more current, actual data, and are to be
      more focused on specific geographical areas (zip codes rather than
      entire metropolitan areas) and seasonal variations. The Board’s final
      report was published in July 2003.

    • Our TeamMate Technical Support Group participates in the TeamMate
      Federal Users Group and the PricewaterhouseCoopers TeamMate
      Users Group to discuss concerns and new challenges facing
      TeamMate users. TeamMate is an automated audit paperwork
      management system designed to make the audit process more
      efficient.

    • The Office of Audits Special Assistant to the AIG for Auditing represents
      GSA on the White House Commission on the National Moment of
      Remembrance. The Commission was established to enhance the
      legacy of Memorial Day as a day to honor those who have sacrificed
      their lives for the principles of freedom and liberty. Major initiatives
      included placing commemorative posters in Federal buildings;
      highlighting Commission activities on Federal, state, and local
      government Web sites; and seeking the participation of Federal
      employees, retirees, and benefit recipients.

    • The Inspector General (IG) serves on the Human Resources and
      Legislation Committees of the President’s Council on Integrity and
      Efficiency (PCIE). The Human Resources Committee fosters
      educational opportunities for members of the IG community and assists
      in ensuring the professional development of OIG personnel. The
      Legislation Committee develops, coordinates, and represents to
      Congress official PCIE positions on particular legislative issues.

    • The IG serves as Editor-in-Chief of The Journal of Public Inquiry, a
      semiannual publication of the Federal IG community. The
      Spring/Summer issue included articles from the Comptroller General of
      the United States on the relationship between the General Accounting
      Office and the Offices of Inspector General, discussions on statutory




                                                   Office of Inspector General 23
                               Governmentwide Policy Activities




                                         law enforcement authority and the newly created Office of Inspector
                                         General for the Department of Homeland Security, and updates on
                                         professional practice matters including an analysis of criminal and civil
                                         parallel proceedings in government fraud-related cases and an
                                         overview of a new guide for reviewing government purchase cards
                                         programs.

Legislation and                        During this reporting period, the OIG reviewed 199 legislative matters and
Regulations                            21 proposed regulations and directives. The OIG specifically commented
                                       on the following legislative and other items:

                                       • Services Acquisition Reform Act (SARA). During this period, we
                                         provided four sets of comments on different versions of the Services
                                         Acquisition Reform Act (SARA), H.R. 1837. Our comments centered
                                         around three provisions with which we had concerns. The measures
                                         contained a provision that would recognize and authorize more directly
                                         the use of time-and-materials vehicles for Multiple Award Schedule
                                         (MAS) services orders. The bills also contained a provision that would
                                         alter the definition of commercial services to expand it so as to allow
                                         more services to be sold under streamlined commercial items
                                         authorities. Finally, these measures contained a provision that would
                                         allow companies making a majority of their sales to commercial
                                         customers to provide noncommercial items to the Federal Government
                                         under an exemption to the Truth in Negotiations Act (TINA) and Cost
                                         Accounting Standards (CAS) requirements.

                                         We stated our concerns about the measures’ endorsement of time-and-
                                         materials vehicles for services task orders. We noted that time-and-
                                         materials vehicles (explicitly disfavored under current Federal
                                         Acquisition Regulation provisions) present many of the risks that pure
                                         cost contracts present, in that contractors have no incentive to control
                                         costs. We suggested, therefore, that any such sanctioning of time-
                                         and-materials be strictly limited, including by requiring that such
                                         vehicles be converted to firm-fixed price vehicles as early as
                                         practicable in the procurement’s life cycle, and that such vehicles be
                                         accompanied by certain safeguards, including audit authority and
                                         payment protections. Later versions of SARA had modified the time-
                                         and-materials provision so that it endorsed the use of such vehicles
                                         only to the extent identified services were sold using such vehicles in
                                         the commercial world. We felt that this limitation was an improvement
                                         on the earlier, broader provision, but we noted our continuing general
                                         concerns regarding time-and-materials vehicles. We also noted that
                                         guidance should be provided in implementing regulations regarding
                                         how to determine which services are sold commercially through time-
                                         and-materials vehicles.




24 Semiannual Report to the Congress
Governmentwide Policy Activities




      Our second set of concerns related to the measures’ provision that
      would expand the definition of “commercial services” by eliminating the
      current requirement that such services have been offered and sold in
      substantial quantities in the commercial market. We noted that this
      proposal was inadvisable on the grounds that services are inherently
      more unique than products or commodities. For services
      procurements, we noted that maintaining a substantial quantities
      requirement strikes a better balance between streamlining acquisition
      authorities and protecting the government against overpricing. Later
      versions of the measure scaled back this provision so as to preserve
      the “substantial quantities” requirement. Our comments noted that we
      favored preserving this requirement.

      Finally, we commented on a provision, contained in various forms in
      each SARA measure, which would have allowed companies with a
      majority of commercial sales to have sold items — even unique,
      noncommercial ones — to the Federal Government under a TINA and
      CAS exemption. We noted our view that for noncommercial items that
      have prices which are untested in the commercial marketplace, it is
      prudent to continue to apply TINA and CAS safeguards in order to
      obtain some assurance of price reasonableness. Our comments noted
      that in the absence of a requirement that a vendor have sold a
      particular service or product commercially subject to market
      competition, there are few safeguards in place to protect against
      overcharging for such an item or service. Throughout the various
      versions of SARA, we continued to object to the “commercial entity”
      provision, noting that TINA and CAS safeguards are needed to guard
      against overpricing for sales of noncommercial items whose price is
      not competed in the market.

    • Congressman Sweeney’s Draft Amendment to FY 2004, Transportation
      and Treasury Appropriations Bill. We provided comments on a draft
      amendment that would prohibit GSA from contracting with any
      company where a director or officer pled guilty or was found guilty of
      criminal securities fraud. The amendment would cover conduct
      involving the making of a false statement misstating a company’s
      revenue by over $1 billion that was not corrected within 180 days by
      the impacted company. We noted our strong view that securities fraud,
      like other criminal and civil fraud, is reprehensible, and that securities-
      related false statements can be a cause for debarment under current
      regulations. We noted, however, that we did not believe that the
      automatic debarment provision provided in the amendment would be
      advisable as it would eliminate any GSA discretion to consider
      mitigating factors in imposing an administrative remedy. Generally, we
      expressed our view that the current debarment process is sufficient to
      address any fraud issues.



                                                     Office of Inspector General 25
                               Governmentwide Policy Activities




                                       • FAR Part 8.4, MAS Ordering Procedures (FAR Case 1999-603). We
                                         drafted comments to the FAR Council regarding a proposed rule that
                                         would revise ordering procedures under MAS contracts. We noted that
                                         the proposed rule was an improvement on current coverage in several
                                         ways. First, the proposed rule would incorporate into regulation
                                         existing Special Ordering Procedures for ordering under hourly rate
                                         services contracts. This should give these procedures more visibility
                                         and make them more accessible to ordering agencies. The proposed
                                         rule also adds additional requirements in the areas of documentation
                                         and competition of orders. We support these proposed changes, in
                                         particular, because we feel this will help ensure that ordering agencies
                                         are properly and effectively performing price comparisons, and are
                                         observing competition principles. Finally, we supported the proposed
                                         rule’s preference for statements of work that are performance based,
                                         and for quotes that are priced on a firm-fixed price basis.

                                         We had several suggested additions for the proposed rule. We
                                         recommended that the FAR Council consider adding language to alert
                                         agencies to the existence of Other Direct Costs (ODCs) on services
                                         task orders. Such ODCs can be substantial in amount. We noted that
                                         although GSA tries to prenegotiate the price or costs of ODCs, it
                                         cannot always do so; we recommended therefore that ordering
                                         agencies scrutinize and negotiate such costs in the ordering process.
                                         We also noted that the best value standard, which applies to MAS
                                         order placement, be restated in the Part 8.4 coverage. Similarly, we
                                         suggested that the standard for time-and-materials orders also be
                                         restated within Part 8.4 coverage.

                                       • Draft GSA Order on Improving Desktop Management. We generally
                                         supported the agency’s goal of standardizing hardware and software
                                         configurations as a way to improve efficiency and productivity. We
                                         noted the independent authority of the Office of Inspector General
                                         regarding IT procurement and policies. We also commented that the
                                         timetables set out for replacing hardware should be flexible to allow for
                                         the possibility that marginal improvements in the performance of new
                                         IT hardware might not justify the costs of replacing existing equipment.

                                       • Draft CIO System Development Life Cycle Standard Handbook. We
                                         provided comments to GSA about its latest draft IT systems handbook
                                         aimed at setting standards for system development, testing, and
                                         security. Among other things, we recommended that the Handbook
                                         specify the people (by position) accountable for each part of the
                                         process. We also recommended a number of procedures be added
                                         and clarifications be made to improve system security and compliance
                                         with Federal technical standards.




26 Semiannual Report to the Congress
Professional Assistance Services




    The General Accounting Office recently issued a revision to the
    independence standard contained in the Government Auditing Standards.
    This amendment prohibits Federal audit organizations from performing
    certain types of management consulting projects because they may
    impair the independence of the auditors when performing subsequent
    audit work in the same area. Although we have always maintained our
    independence when working closely with GSA management, we are no
    longer performing consulting assignments and are carefully assessing our
    services to meet the new standard. As allowed under the new standard,
    we are continuing our participation on Agency improvement task forces,
    committees, and working groups, in an observer or advisory capacity.

    Task Forces, Committees, and Working Groups. The OIG provides
    advice and counsel to GSA while monitoring ongoing Agency initiatives.
    Our representatives advise management at the earliest possible
    opportunity of potential problems, help ensure that appropriate
    management controls are provided when installing new or modifying
    existing Agency systems, and offer possible solutions when addressing
    complex financial issues.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our new initiatives within the Federal
    community. We nevertheless maintain our ability to independently audit
    and review programs. Our participation on the task forces is typically as
    a non-voting advisory member. We maintain a strict policy of excluding
    staff members who have served on developmental task forces from
    subsequent audits of the same subject areas.

    Some areas in which we have been involved this period include:

    • Single Audit Activities. The Single Audit Act established uniform
      audit requirements for state and local governments receiving Federal
      awards. The non-Federal entities that receive Federal awards under
      more than one Federal program are required to undergo a single audit
      to prevent duplicate audits and inefficiencies. Each Federal agency
      monitors the non-Federal entity’s use of awards provided by the
      Agency, and assesses the quality of the audits conducted relative to its
      program. The OIG monitors these activities as they relate to the
      personal property disposal program.

    • The Information Technology (IT) Council. The Council monitors
      policies and programs to ensure IT consistency throughout the Agency.
      It is comprised of the Chief Information Officers of the various GSA
      Services and Staff Offices. Representatives of our office participate in



                                                   Office of Inspector General 27
                               Professional Assistance Services




                                         meetings at the request of the Agency on such matters as systems
                                         controls, architecture, security, or new legislative requirements.

                                       • Federal Supply Service (FSS) Working Group. FSS has convened
                                         a working group to address contract negotiations and audit issues that
                                         were the subject of an OIG special report on Multiple Award Schedule
                                         pricing practices. The OIG is providing advice and assistance to FSS
                                         in its issuance of guidance to contracting officers and development of
                                         training initiatives on these issues.

                                       • Project Action Team. At the Administrator’s request, the Senior
                                         Procurement Executive has convened a Project Action Team to review
                                         matters involving contract management recently raised by the OIG
                                         (see page 4). The team is to determine if there are problems with the
                                         acquisition process, policies, or training and education that caused or
                                         contributed to specific issues reported, or if there are other systemic
                                         problems surrounding the acquisitions highlighted by the OIG. A
                                         representative of the Office of Audits is providing assistance to the
                                         team.




28 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments




                                Audit Reports Issued
                                The OIG issued 67 audit reports during this reporting period. The reports
                                contained financial recommendations totaling $39,877,083, including
                                $37,063,566 in recommendations that funds be put to better use and
                                $2,813,517 in questioned costs. Due to GSA’s mission of negotiating
                                contracts for governmentwide supplies and services, most of the savings
                                from recommendations that funds be put to better use would be
                                applicable to other Federal agencies.

                                Management Decisions on Audit Reports
                                Table 1 summarizes the status of the universe of audits requiring
                                management decisions during this period, as well as the status of those
                                audits as of September 30, 2003. There were no reports more than six
                                months old awaiting management decisions as of September 30, 2003.
                                Table 1 does not include 3 reports issued to other agencies this period.
                                Table 1 also does not include 6 reports excluded from the management
                                decision process because they pertain to ongoing investigations.

                                Three GSA audits issued in a prior period, two of which had financial
                                recommendations, were re-classified as non-GSA audits this period.
                                These pertained to the Federal Protective Service which was transferred
                                to the Department of Homeland Security. Tables 1, 2, and 3 decision
                                statistics as of September 30, 2003, reflect this change.

                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 4/1/03
  Less than six months old                          40                  27                $ 13,150,528
  Six or more months old                             5                   2                     247,809
Reports issued this period                          64                  30                  39,624,982
TOTAL                                              109                  59                $ 53,023,319
For which a management decision
was made during the reporting period
  Issued prior periods                              42                  27                $ 13,349,030
  Issued current period                             35                  12                  24,890,925
TOTAL                                               77                  39                $ 38,239,955
For which no management decision
had been made as of 9/30/03
  Less than six months old                          29                  18                $ 14,734,057
  Six or more months old                             0                   0                           0
TOTAL                                               29                  18                $ 14,734,057

                                                                               Office of Inspector General 29
                      Statistical Summary of OIG Accomplishments




                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing
                                       financial recommendations by category (funds to be put to better use or
                                       questioned costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                              No. of                      Financial
                                                             Reports                  Recommendations

       For which no management decision had
       been made as of 4/1/03
         Less than six months old                                26                     $13,056,307
         Six or more months old                                   1                         203,343
       Reports issued this period                                28                      36,811,465
       TOTAL                                                     55                     $50,071,115
       For which a management decision was
       made during the reporting period
         Recommendations agreed to by
         management based on proposed
         •management action                                      —                      $35,164,266
         •legislative action                                     —                               —
         Recommendations not agreed to
         by management                                           —                          203,343
       TOTAL                                                     37                      $35,367,609
       For which no management decision had
       been made as of 9/30/03
         Less than six months old                                17                      $14,698,665
         Six or more months old                                   0                                0
       TOTAL                                                     17                      $14,698,665




30 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




           Table 3. Management Decisions on OIG Audits
                      with Questioned Costs

                                    No. of               Questioned
                                   Reports                 Costs

For which no management decision
had been made as of 4/1/03
  Less than six months old             1              $    94,221
  Six or more months old               1                   44,466
Reports issued this period             2                2,813,517
TOTAL                                  4               $2,952,204
For which a management decision
was made during the reporting
period
  Disallowed costs                    —                $2,872,346
  Costs not disallowed                —                         0
TOTAL                                  2               $2,872,346
For which no management decision
had been made as of 9/30/03
  Less than six months old             1              $     35,392
  Six or more months old               0                         0
TOTAL                                  1              $     35,392




                                                   Office of Inspector General 31
                       Statistical Summary of OIG Accomplishments




                                       Investigative Workload
                                       The OIG opened 93 investigative cases and closed 97 cases during this
                                       period. In addition, the OIG received and evaluated 47 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA
                                       officials on certain cases disclosing wrongdoing on the part of GSA
                                       employees, contractors, or private individuals doing business with the
                                       government.

                                Table 4. Summary of OIG Referrals

            Type of Referral                          Cases                                Subjects
            Criminal                                     49                                    89
            Civil                                        15                                    21
            Administrative                               87                                   184
            TOTAL                                      151                                    294


                                       In addition, the OIG made 29 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 31 cases (56 subjects) were accepted
                                       for criminal prosecution and 11 cases (13 subjects) were accepted for
                                       civil litigation. Criminal cases originating from OIG referrals resulted in
                                       21 indictments/informations and 32 successful prosecutions. OIG civil
                                       referrals resulted in 3 case settlements. Based on OIG administrative
                                       referrals, management debarred 28 contractors/individuals, suspended
                                       31 contractors/individuals, and took 32 personnel actions against
                                       employees.




32 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments




                            Monetary Results
                            Table 5 presents the amounts of fines, penalties, settlements, judgments,
                            and restitutions payable to the U.S. Government as a result of criminal
                            and civil actions arising from OIG referrals.


                Table 5. Criminal and Civil Recoveries
                                              Criminal                         Civil

Fines and Penalties                           $ 19,945                  $          —

Settlements and Judgments                            —                      5,643,750

Restitutions                                    764,944                            —

TOTAL                                         $784,889                  $5,643,750



                            Table 6 presents the amount of administrative recoveries, recovered
                            property, and savings as a result of investigative activities.



                        Table 6. Other Monetary Results
Administrative Recoveries                     $355,615

Recovered Property                              475,640

Investigative Savings                           158,971

TOTAL                                         $990,226




                                                                             Office of Inspector General 33
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                  services contracts. The report contained three
process, the GSA Office of the Chief Financial Officer,     recommendations; two have been implemented.
Office of the Controller, is responsible for tracking the
implementation of audit recommendations after a             The remaining recommendation involves considering
management decision has been reached. That office           lessons learned from current and expired brokerage
furnished the following status information.                 contracts before committing to a new procurement
                                                            strategy. It is scheduled for completion on November
Fourteen audits highlighted in prior reports to the         15, 2003.
Congress have not yet been fully implemented; all are
being implemented in accordance with currently              Purchase Card Controls
established milestones.                                     Period First Reported: October 1, 2002 to March 31, 2003

PBS’ Systems Development Center                             A series of three reviews identified the need to improve
                                                            controls for purchase cards. The three reports
Period First Reported: October 1, 2002 to March 31, 2003    contained eight recommendations; three have been
The review examined PBS’ Systems Development                implemented.
Center which was established to resolve IT
management and systems development weaknesses.              The remaining recommendations involve implementing
The report contained four recommendations; two have         controls so that transactions are in compliance with
been implemented.                                           laws and regulations, assuring that cardholders and
                                                            approving officials are aware of responsibilities,
The remaining recommendations involve improving             requiring use of Pegasys electronic log, minimizing the
internal IT requirements definition processes and           number of cardholders, and developing procedures to
establishing reporting mechanisms to document and           strengthen existing controls. They are scheduled for
report on overall contractor performance and                completion between November 15, 2003 and January
deliverables. They are scheduled for completion             15, 2004.
between November 15, 2003 and January 15, 2004.
                                                            FSS City Pair Program
Construction Claims                                         Period First Reported: October 1, 2002 to March 31, 2003
Period First Reported: October 1, 2002 to March 31, 2003    The review identified opportunities for improvements in
The review examined construction claims. The report         the City Pair Program. The report contained five
contained seven recommendations; two have been              recommendations; one has been implemented.
implemented.
                                                            The remaining recommendations require considering
The remaining recommendations involve extending             additional methods to obtain airline services,
overhead rates from potential contractors, enforcing        educating contractors and travelers on the benefits of
contract clauses dealing with scheduling and progress       using dual fares, obtaining accurate and timely infor-
payments, requiring supervision of project personnel        mation to be used by program officials, and following
and documentation of project files, requiring all costs     through with the ad hoc committee recommendations.
be included in client requested change orders, and          They are scheduled for completion between February
                                                            15 and July 15, 2004.
providing training on project and constructions claims
management. They are scheduled for completion
between November 15, 2003 and April 15, 2004.               Consolidation of Distribution Centers
                                                            Period First Reported: October 1, 2002 to March 31, 2003
PBS’ Use of Brokerage Contracts
                                                            The review examined the operations of the FSS Stock
Period First Reported: October 1, 2002 to March 31, 2003
                                                            Program. The report contained two recommendations;
The review examined national and regional brokerage         one has been implemented.


                                                                                        Office of Inspector General 37
                   Appendix I–Significant Audits from Prior Reports




The remaining recommendation, which requires                 during the RWA work process. It is scheduled for
developing access to reliable data for all delivery          completion on November 15, 2003.
methods, is scheduled for completion on December 15,
2003.                                                        FEDdesk’s Online Services
                                                             Period First Reported: April 1, 2002 to September 30, 2002
Section 508 of the Rehabilitation Act                        The review examined FEDdesk’s online services. The
Period First Reported: October 1, 2002 to March 31, 2003     report contained six recommendations; five have been
The review evaluated GSA’s commitment to                     implemented.
implementing Section 508 of the Rehabilitation Act.
The report contained two recommendations; one has            The remaining recommendation involves providing
been implemented.                                            continuity of services by providing hardware changes
                                                             and protecting sensitive data. It is scheduled for
The remaining recommendation involves monitoring             completion on January 15, 2004.
initiatives for addressing Section 508. It is scheduled
for completion on February 15, 2004.                         Securing GSA’s E-Mail System
                                                             Period First Reported: April 1, 2002 to September 30, 2002

Controls for Privacy Act Data                                The review examined GSA’s electronic mail system
Period First Reported: October 1, 2002 to March 31, 2003     security. The report contained six recommendations;
                                                             three have been implemented.
This assessment of security controls for GSA’s various
IT systems identified concerns related to the Agency’s       The remaining recommendations involve conducting
management of Privacy Act and sensitive data. The            background investigations on contractor personnel,
report contained three recommendations; one has              deleting e-mail access for terminated contractors, and
been implemented.                                            requiring password aging. They are scheduled for
                                                             completion between November 15, 2003 and April 15,
The remaining recommendations involve including              2004.
appropriate Privacy Act requirement clauses in IT
contracts and ensuring that accountability and               Use of the Occupancy Agreement
responsibility is assigned for each of GSA’s systems of
                                                             Period First Reported: October 1, 2001 to March 31, 2002
records. They are scheduled for completion on
November 15, 2003.                                           The review examined rent billing records covered
                                                             by Occupancy Agreements (OA). The report contained
Billing and Payment Systems                                  six recommendations; one has been implemented.
Period First Reported: April 1, 2002 to September 30, 2002   The remaining recommendations involve establishing
The review examined controls over reimbursable work          and supporting the OA, considering an electronic
authorizations (RWA) billings between GSA and other          signature requirement, measuring the time an OA
Federal agencies.      The report contained two              remains in draft status, tracking the variance between
recommendations; one has been implemented.                   OA projected rent and the actual billed rent, and
                                                             including enough information on the OA to identify the
The remaining recommendation involves incorporating          space assigned. They are scheduled for completion on
estimated cost data for planning workflow before and         January 15, 2004.




38 Semiannual Report to the Congress
                   Appendix I–Significant Audits from Prior Reports




Electronic Commerce Systems                                  Operating Equipment Inventories
Security                                                     Period First Reported: October 1, 2000 to March 31, 2001
Period First Reported: April 1, 2001 to September 30, 2001
                                                             The review focused on equipment maintenance
The review examined nine selected electronic                 maintained by contractors. The report contained two
commerce systems. The report contained four                  recommendations; one has been implemented.
recommendations; three have been implemented.
                                                             The remaining recommendation involves identifying
The remaining recommendation involves establishing a         the responsibility for maintenance programs to
process for reviewing system security requirements. It       contractors. It is scheduled for completion on
is scheduled for completion on December 15, 2003.            November 15, 2003.




                                                                                         Office of Inspector General 39
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs


(Note: Because some audits pertain to contract award or actions that
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)



PBS Internal Audits
08/11/03        A030085         Audit of the Southeast Sunbelt Region
                                Public Buildings Service’s Purchase Card
                                Transactions

08/21/03        A020234         Review of PBS Service Contract in the
                                Rocky Mountain Region

09/03/03        A020055         Audit of the Public Buildings Service’s
                                Expenditures for the Montgomery
                                Courthouse Project in Relation to
                                Congressionally Approved Expenditures

09/30/03        A020143         Audit of Public Buildings Service’s
                                Administration of Performance-Based
                                Service Contracts

09/30/03        A030039         Audit of the Inventory         Reporting
                                Information System

PBS Contract Audits
04/02/03        A030001         Preaward Audit of a Claim:     Baker
                                Concrete Construction, Incorporated,
                                Contract Number GS-11P-95-MMC-0011

04/29/03        A030020         Audit of Claim for Increased Costs: The
                                Clark Construction Group, Inc., Contract
                                Number GS06P96GZC0508

05/02/03        A030106         Preaward Audit of a Claim for Increased
                                Costs:        George Foss Company,
                                Subcontractor        to   Morse     Diesel
                                International, Inc., New U.S. Courthouse &
                                Federal Building, Sacramento, California,
                                Contract Number GS-09P-95-KTC-0032




40 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number             Title                                 Better Use         Costs


05/06/03   A030142   Preaward Audit of Construction Management
                     Services Contract:       Gilbane Building
                     Company, Solicitation Number GS-02P-02-
                     DTC-0031N

05/14/03   A030146   Audit of Claim for Increased Costs: Spencer
                     Tile Company, Inc., Subcontractor to The
                     Clark Construction Group, Inc., Contract
                     Number GS06P96GZC0508

05/19/03   A030092   Preaward Audit of a Termination Settlement
                     Proposal: L&H Construction Co., Inc.,
                     Contract Number GS-02P-99-DTC-0013

05/28/03   A030166   Audit of Claim for Increased Costs: Dawson
                     Building Contractors, Inc., Contract Number
                     GS06P97GYC1007(N)

05/29/03   A020230   Preaward Audit of a Claim for Increased
                     Costs: C. E. Toland & Son, Subcontractor to
                     Morse Diesel International, Inc., U.S.
                     Courthouse & Federal Building, Sacramento,
                     California, Contract Number GS-09P-95-
                     KTC-0032

05/29/03   A030088   Preaward Audit of a Termination Settlement
                     Proposal: Imperial Construction Group, Inc.,
                     Contract Number GS-02P-01-PCU-0036

06/02/03   A030138   Audit of Claim for Increased Costs: Hunt
                     Construction Group, Inc., Contract Number
                     GS-05P-96-GBC-0015

06/10/03   A030182   Preaward Audit of Architect and Engineering
                     Services Contract: Mack Scogin Merrill Elam
                     Architects, Incorporated, Contract Number
                     GS-07P-02-UGC-0004

06/17/03   A030159   Audit of Claim for Increased Costs: Steel
                     Service Corporation, Subcontractor to The
                     Clark Construction Group, Inc., Contract
                     Number GS06P96GZC0508




                                                                         Office of Inspector General 41
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs


06/26/03        A030183         Preaward Audit of Architect and
                                Engineering Services Contract: Thomas
                                Miller & Partners, Solicitation Number GS-
                                04P-02-EXC-0038

07/15/03        A030192         Preaward Audit of Architect and
                                Engineering Services Contract: Joseph R.
                                Loring & Associates, Inc., Solicitation
                                Number GS-11P-03-MKC-0001

07/16/03        A030208         Preaward Audit of Architect-Engineering
                                Services Term Contract: Potter and Cox
                                Architects, Solicitation Number GS-04P-
                                03-EWM-0027

07/21/03        A030190         Preaward Audit of Cost or Pricing Data:
                                John Milner Associates, Inc., Solicitation
                                Number GS-02P-03-CTC-0001

07/21/03        A030194         Preaward Audit of Architect and
                                Engineering Services Contract: Beyer,
                                Blinder, Belle Architects & Planners, LLP,
                                Solicitation Number GS-11P-03-MKC-0001

07/24/03        A030193         Preaward Audit of Architect and
                                Engineering Services Contract: Robert
                                Silman and Associates, PLLC, Solicitation
                                Number GS-11P-03-MKC-0001

07/29/03        A030203         Preaward Audit of Architect-Engineering
                                Services Term Contract: Joseph and
                                Joseph Architects, Solicitation Number GS-
                                04P-03-EWM-0027

08/08/03        A030177         Review of Incurred Costs:          Jacobs                       $35,392
                                Facilities, Inc., Contract Number GS-11P-
                                98-MYD-0015

08/15/03        A030222         Preaward Audit of Architect and
                                Engineering Services Contract:     The
                                Lukmire Partnership, Inc., Solicitation
                                Number GS-11P-02-MAD-0177




42 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                           Recommendations
                                                                       Funds to        Questioned
Date of    Audit                                                      Be Put to      (Unsupported)
Report     Number              Title                                  Better Use         Costs


08/15/03   A030224    Preaward Audit of Architect-Engineer Design
                      Services Contract:      Orcutt Associates,
                      Contract Number GS-01P00BZC0013

08/28/03   A030187    Audit of Claim for Increased Costs:
                      Cleveland Construction, Inc., Subcontractor
                      to The Clark Construction Group, Inc.,
                      Contract Number GS06P96GZC0508

08/28/03   A030199    Audit of Claim for Increased Costs: Dick
                      Corporation, Contract Number GS-05P-97-
                      GBC-0011

09/17/03   A030226    Preaward Audit of Architect and Engineering
                      Services Contract: MTFA Architecture, Inc.,
                      Solicitation Number GS-11P-02-MAD-0177

09/23/03   A030236    Preaward Audit of Architect and Engineering
                      Services Contract: Atkinson Koven Feinberg
                      Engineers, LLP, Consultant to Perkins
                      Eastman Architects, PC, Solicitation Number
                      GS-02P-03-DTD-0008(N)

09/29/03   A030152    Preaward Audit of a Claim: J.A. Jones
                      Construction Group, LLC, Contract Number
                      GS-02P-99-DTC-0006

09/30/03   A030264    Preaward Audit of Cost and Pricing Data:
                      Kelly’s Cleaning Services, Inc., Solicitation
                      Number GS-02P-03-PIC-0028

09/30/03   A030144    Audit of Claim for Increased Costs: Valley
                      City Manufacturing Company Limited,
                      Subcontractor to The Clark Construction
                      Group,      Inc.,     Contract     Number
                      GS06P96GZC0508

FSS Internal Audits
04/29/03   A030064    Audit of Controls over Sensitive Items:
                      Eastern Distribution Center

07/03/03   A020247    Audit of the GSA Fleet National Maintenance
                      Control Center




                                                                           Office of Inspector General 43
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs


07/31/03        A020243         Audit of Procurement of Professional
                                Services from the Federal Supply Service’s
                                Multiple Award Schedules

09/25/03        A020118         Review of the GSA SmartPay Program
                                Refunds

09/30/03        A020253         Review of Federal Supply Service
                                Automated Supply System FSS-19 and
                                Online System Capabilities

FSS Contract Audits
04/04/03        A030133         Preaward Audit of Multiple Award Contract:
                                LeCroy Corporation, Contract Number GS-
                                24F-1092B

05/08/03        A030135         Preaward Audit of Multiple Award Schedule
                                Contract Extension for the Period June 1,
                                2003 through May 31, 2008: Advanced
                                Testing Technologies, Inc., Contract
                                Number GS-24F-3010G

05/13/03        A030101         Preaward Audit of Multiple Award Schedule
                                Contract: Solicitation 7FXP-D4-01-0539-
                                B, Hubert Company, LLC

06/04/03        A030084         Review of Voluntary Price Reduction
                                Disclosure: Sunrise Medical HHG, Inc.,
                                GSA Contract Numbers GS-27F-3016D
                                and GS-28F-1049C

06/05/03        A030128         Preaward Audit of Multiple Award Schedule
                                Contract:   Agilent Technologies, Inc.,
                                Contract Number GS-24F-0806A

06/05/03        A030153         Preaward Audit of Multiple Award Schedule
                                Contract:     Science & Engineering
                                Associates, Inc., Contract Number GS-
                                35F-5790H

07/02/03        A030163         Preaward Audit of Multiple Award Schedule
                                Contract Extension: Information Network
                                Systems, Inc., Contract Number GS-35F-
                                5002H



44 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                           Recommendations
                                                                       Funds to        Questioned
Date of    Audit                                                      Be Put to      (Unsupported)
Report     Number                Title                                Better Use         Costs


07/17/03   A030185      Preaward Audit of Multiple Award Schedule
                        Contract   Extension:       Rodco-Brandt
                        Manufacturing, Contract Number GS-27F-
                        2008B

09/11/03   A030210      Preaward Audit of Multiple Award Schedule
                        Contract: Analytic Services, Inc., Contract
                        Number GS-10F-0026J

09/24/03   A030124      Interim Audit of Multiple Award Schedule
                        Contract: GovConnection, Incorporated,
                        Contract Number GS-35F-4572G

09/30/03   A030243      Sales Data Analysis for Multiple Award
                        Schedule Contract: Motorola, Incorporated,
                        Contract Number GS-35F-0004L for the
                        Twelve Months Ending July 25, 2003

FTS Internal Audits
06/05/03   A020214      Audit of Compliance with Qualification
                        Standards for Acquisition Personnel within
                        the Federal Technology Service

09/30/03   A030204      Audit of Federal Technology Service
                        Financial  Controls  over Information
                        Technology Solutions

FTS Contract Audits
07/08/03   A030136      Interim Postaward Audit of Presubscribed                          $2,778,125
                        Interexchange Carrier Charges:    Sprint
                        Communications Company, L.P., Contract
                        Number GS00T99NRD2001

Other Internal Audits
04/04/03   A030108      Audit of Purchase Card Usage in GSA Staff
                        Offices

05/12/03   A030108      Audit of Purchase Card Usage in the Office
                        of General Counsel




                                                                           Office of Inspector General 45
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs


06/13/03        A030108         Audit of Purchase Card Usage in the Office
                                of the Chief Financial Officer

06/18/03        A030108         Audit of Purchase Card Usage in the Office
                                of the Chief People Officer

07/02/03        A030108         Audit of Purchase Card Usage in the Office
                                of Small Business Utilization

07/22/03        A030108         Audit of Purchase Card Usage in the Office
                                of Governmentwide Policy

07/22/03        A030108         Audit of Purchase Card Usage in the Office
                                of Congressional and Intergovernmental
                                Affairs

07/24/03        A030108         Audit of Purchase Card Usage in the Office
                                of the Chief Information Officer

09/03/03        A030162         Audit of the Help America Vote Act of 2002

09/10/03        A030157         FY 2003 Office of Inspector General
                                Review of GSA’s Information Security
                                Program

09/30/03        A030154         Review of Payroll Internal Controls FY
                                2003

Non-GSA Internal Audits
06/27/03        A030125         Audit of the Administrative Procedures of
                                the United States Arctic Research
                                Commission

Non-GSA Contract Audits
06/30/03        A030169         Audit of Reimbursable Costs Relating to
                                Plancor 483 Beazer Superfund Site,
                                Lyondell Chemical Co.

09/19/03        A030238         Preaward Audit of Cost or Pricing Data:
                                Shell Oil Company




46 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)

09/22/97       A70649          Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                               Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97       A71526          Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                               Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                               January 31, 2001

10/23/97       A70655          Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                               to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/24/97       A70660          Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                               Contract Number GS-02P-94-CUC-0070(N)



                                                                                         Office of Inspector General 47
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


11/12/97       A70656          Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                               Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97       A22536          Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                               Contract Number GS00K89AGS5589

11/26/97       A32476          Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                               GS00K89AGS5589

12/24/97       A80602          Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                               Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98       A80604          Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                               Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98       A80608          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)

02/05/98       A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                               Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                               CUC-0070(N)

02/11/98       A80607          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070(N)

03/19/98       A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                               Contract Number GS-07P-92-HUC-0017

04/13/98       A80621          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070 (N)

05/27/98       A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                               Contract Number GS-00F-07010

06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068




48 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


10/13/98   A80636    Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                     Number GS-02P-96-DTC-0033

11/16/98   A80646    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/17/99   A995100   Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                     Inc., Contract Number GS-03P-96-DXC-0021

03/24/99   A995128   Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                     Morse Diesel International, Inc., Contract Number GS06P95GZC0501

03/30/99   A995150   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                     PLD-0015(N)

04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

05/05/99   A995151   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                     1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                     Number GS-26F-1018B

06/15/99   A42113    Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                     Contract Number GS-00F-07000

06/15/99   A995171   Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                     EMN-1999-MO-2032 & EMN-1999-MO-2036

06/22/99   A995164   Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                     Corporation, Extension to Contract Number GS-35F-4544G

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)

07/07/99   A995209   Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                     92CUC0029(N)




                                                                          Office of Inspector General 49
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


07/30/99        A995173         Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                                1999-MO-2032 & EMN-1999-MO-2036

08/12/99        A995215         Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                                & EMN-1999-MO-2036

09/09/99        A995283         Preaward Review of Multiple Award Schedule Contract:          National Education
                                Training Group, Inc., Contract Number GS-02B-22885

09/15/99        A52534          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288

09/15/99        A52565          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS01)

09/15/99        A52566          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS02)

09/23/99        A995296         Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                                Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                                2004

10/04/99        A995275         Preaward Audit of Change Order Proposal to Contract Number GS-
                                02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                                University

10/13/99        A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

11/29/99        A995304         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                October 1, 1999 Through September 30, 2004: Coastal Video Communications
                                Corp., Contract Number GS-02F-9309C

11/30/99        A995289         Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                                Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                                Number GS-02P-93-CUC-0062




50 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


12/08/99   A995330   Preaward Audit of Multiple Award Schedule Contract:       Caswell International
                     Corporation, Contract Number GS-02F-0434D

01/07/00   A000821   Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                     02F-1407H: Development Dimensions International, Inc.

01/11/00   A000819   Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                     Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                     93-CUC-0062

02/08/00   A995167   Price Adjustments on Multiple Award Schedule Contract: National Education
                     Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period March
                     1, 2000 Through March 31, 2000

02/15/00   A40910    Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                     Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00   A000923   Preaward Audit of Multiple Award Schedule Contract:        Shamrock Scientific
                     Specialty Systems, Inc., Contract Number GS-14F-9732C

03/02/00   A000934   Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                     Inc., Contract Number GS-14F-0150D

03/06/00   A000948   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                     Number GS-14F-0161D

03/06/00   A000963   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

03/09/00   A000911   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                     Contract Number GS-14F-9734C

03/10/00   A000936   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc.,
                     Contract Number GS-14F-0177D

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996

03/29/00   A995122   Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                     Period March 1, 1996 Through April 30, 1998




                                                                         Office of Inspector General 51
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


04/04/00        A000943         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/17/00        A000889         Preaward Audit of a Claim for Increased Costs: Italian Marble and Tile Company,
                                Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                                U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/25/00        A000975         Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                                Contract Number GS-14F-0193D

05/02/00        A000918         Preaward Audit of a Claim for Increased Costs: Morrow-Meadows Corporation,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/08/00        A000944         Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company,
                                Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                                U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/11/00        A000950         Preaward Audit of a Claim for Increased Costs: Moon and Crockett Plumbing
                                Corporation, Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                                Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                                KTC-0012

05/11/00        A000993         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                                96-DTC-0033

05/16/00        A001007         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                                GS-14F-9729C

05/18/00        A000961         Preaward Audit of a Claim for Increased Costs: Washington Iron Works,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/18/00        A001009         Limited Postaward Audit of Multiple Award Schedule Contract:      Day Runner,
                                Incorporated, Contract Number GS-14F-0193D

05/25/00        A000955         Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                                GS-23F-98006

05/26/00        A000853         Preaward Audit of a Claim for Increased Costs: Ray Wilson Company, Ronald
                                Reagan Federal Building & U.S. Courthouse, Santa Ana, California, Contract
                                Number GS-09P-95-KTC-0012

06/01/00        A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                Triangle Project



52 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


06/27/00   A000860   Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                     Requirements under Contract Number GS-23F-98006

06/30/00   A001000   Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                     98006

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00   A001028   Limited Review of Contract Extension Claim: International Services, Inc., Contract
                     Number GS-02P-94-CTD-0141

07/28/00   A000916   Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/01/00   A001001   Preaward Audit of a Claim for Increased Costs: Aztec Fire Protection, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/23/00   A001018   Preaward Audit of a Claim for Increased Costs: Borbon, Inc., Subcontractor to Ray
                     Wilson Company, Ronald Reagan Federal Building & U.S. Courthouse, Santa Ana,
                     California, Contract Number GS-09P-95-KTC-0012

08/24/00   A000941   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/28/00   A001023   Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/31/00   A001044   Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

10/17/00   A001024   Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/25/00   A001098   Preaward Audit of a Claim for Increased Costs: Well-Bilt Aluminum Products,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00   A001082   Preaward Audit of a Claim for Increased Costs: Invensys Building Systems, Inc.,
                     Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012



                                                                           Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


11/08/00        A001085         Preaward Audit of a Claim for Increased Costs: D. Burke Mechanical Corp.,
                                Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                                Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                                KTC-0012

11/09/00        A001078         Preaward Audit of a Claim (Unresolved Change Orders): Warren Electrical
                                Construction Corporation, Subcontractor to Archer-Western Contractors, Ltd.,
                                Contract Number GS-03P-96-DXC-0017

12/07/00        A001025         Preaward Audit of a Claim for Increased Costs: Aztec Contracting, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

12/13/00        A010047         Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract
                                Number GS-04P-96-EXC-0033

01/10/01        A001092         Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                                Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01        A001021         Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                                Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                                0322J

01/10/01        A001021         Postaward Audit of Multiple Award Schedule Contract and Industrial Funding Fee:
                                Merant, Inc. for the Interim Period March 26, 1999 Through September 30, 2000,
                                Contract Number GS-35F-0322J

01/25/01        A001081         Preaward Audit of a Claim for Increased Costs: Coken Company, Inc.,
                                Subcontractor to Dick Corporation, U.S. Courthouse & Federal Building, Phoenix,
                                Arizona, Contract Number GS-09P-96-KTC-0070

01/29/01        A000909         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

02/06/01        A010094         Preaward Audit of a Claim: Smith & Oby Company, Contract Number GS-05P-99-
                                GBC-0025

02/08/01        A010089         Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                                Courthouse, Pensacola, FL, Lease Number GS-04B-35055

02/12/01        A001047         Preaward Audit of a Claim (Time Impact Costs): Warren Electrical Construction
                                Corporation, Subcontractor to Archer-Western Contractors, Ltd., Contract Number
                                GS-03P-96-DXC-0017

02/15/01        A001072         Audit of Claim for Increased Costs: Archer-Western Contractors, Ltd., Contract
                                Number GS-03P-96-DXC-0017




54 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


02/28/01   A010093   Preaward Audit of a Change Order Proposal:        J. Kokolakis Contracting, Inc.,
                     Contract Number GS-02P-98-DTC-0056N

03/07/01   A010100   Audit of Claim for Unresolved Change Orders: Archer-Western Contractors, Ltd.,
                     Contract Number GS-03P-96-DXC-0017

03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.

05/11/01   A010128   Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                     J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01   A010160   Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                     Number 2PCB-CM-010174

05/30/01   A010175   Preaward Audit of Cost or Pricing Data:       Caswell International Corporation,
                     Contract Number GS-02F-0434D

05/31/01   A010118   Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                     Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                     98-KTC-0020

06/06/01   A000965   Limited Scope Postaward Audit of Multiple Award Schedule Contract for the Period
                     July 1, 1999 Through December 31, 1999: Franklin Covey, Contract Number GS-
                     14F-9729C

06/19/01   A001113   Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                     GS-23F-98006 for the Interim Period November 30, 1998 Through December 31,
                     2000

07/03/01   A010168   Audit of Claim for Increased Costs: C.W. Fentress J.H. Bradburn and Associates,
                     P.C., Contract Number GS-07P-91-JXC-0062

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088

08/16/01   A010122   Interim Postaward Audit of Multiple Award Schedule Contract: ABM, Inc., Contract
                     Number GS-26F-1002B



                                                                           Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


09/17/01       A010221         Preaward Audit of Multiple Award Schedule Contract:             Konica Business
                               Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01       A010253         Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                               Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                               April 30, 2005

10/18/01       A63630          Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                               Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                               March 31, 1996

10/19/01       A010215         Preaward Audit of a Claim for Increased Costs: Century Steel, Inc., Subcontractor
                               to J.A. Jones Construction Company, Lloyd D. George U.S. Courthouse, Las
                               Vegas, Nevada, Contract Number GS-09P-97-KTC-0014

10/23/01       A010172         Audit of Billings under Various Contracts: Jensen Electric and Service Company

10/31/01       A010246         Preaward Audit of Multiple Award Schedule Contract for the Period October 1,
                               2001 through September 30, 2005: Kyocera Mita America, Inc., Solicitation
                               Number FCGE-C1-00-0001-B

10/31/01       A010265         Preaward Audit of Architect and Engineering Services Contract: HNTB District of
                               Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

11/08/01       A010214         Preaward Audit of a Claim for Increased Costs: Strocal, Inc., Subcontractor to J.A.
                               Jones Construction Company, Lloyd D. George U.S. Courthouse, Las Vegas,
                               Nevada, Contract Number GS-09P-97-KTC-0014

11/29/01       A010011         Limited Scope Postaward Audit: MasterCard International’s Compliance with Fuel
                               Tax Requirements under GSA’s SmartPay Contract

12/18/01       A001123         Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                               Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                               April 30, 1991

01/11/02       A010281         Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                               Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                               Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/17/02       A010247         Preaward Audit of Multiple Award Schedule Contract:             Cummings-Allison
                               Corporation, Solicitation Number FCGE-C1-00-0001-B

01/17/02       A010247         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Cummings-
                               Allison Corporation, Contract Number GS-25F-5126C

02/20/02       A010138         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                               Construction Company, Contract Number GS-02P-95-DTC-0014



56 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


02/26/02   A010220   Preaward Audit of a Claim for Increased Costs: J.A. Jones Construction Company,
                     Inc., Lloyd D. George U.S. Courthouse, Las Vegas, Nevada, Contract Number GS-
                     09P-97-KTC-0014

03/07/02   A020108   Limited Scope Postaward Audit of the Industrial Funding Fee Submitted under
                     Multiple Award Schedule Contract Number GS26F1006B: Kyocera Mita America,
                     Inc.

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

04/11/02   A60648    Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                     Numbers GS-00F-3918A & GS-00F-3919A

04/18/02   A010248   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02   A010262   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/29/02   A020154   Audit of Request for Equitable Adjustment: Control Systems International, Contract
                     Number GS-04P-97-EXC-0015

04/30/02   A020101   Preaward Audit of a Claim, Additional Change Items:          Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

05/16/02   A020115   Limited Scope Audit of a Termination Claim:      Patriot Group Contractors, Inc.,
                     Contract Number GS-11P-99-MAC-0006

05/17/02   A020125   Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                     02P-98-DTC-0056N

05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N

05/22/02   A020157   Audit of Request for Equitable Adjustment: William R. Nash, Inc., Contract Number
                     GS-04P-97-EXC-0015

05/28/02   A020158   Audit of Request for Equitable Adjustment:     Lynn Rai Electric, Inc., Contract
                     Number GS-04P-97-EXC-0015

05/29/02   A020109   Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032



                                                                           Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


05/30/02        A020155         Audit of Request for Equitable Adjustment:      Bay Mechanical, Inc., Contract
                                Number GS-04P-97-EXC-0015

05/31/02        A020156         Audit of Request for Equitable Adjustment: Mechanical Insulations, Inc., Contract
                                Number GS-04P-97-EXC-0015

06/06/02        A020132         Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                                97-GBC-0011

06/06/02        A020141         Audit of Claim for Increased Costs: The Albert M. Higley Co., Subcontractor to
                                Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/06/02        A020142         Audit of Claim for Increased Costs: Mohawk Re-Bar Services, Inc., Subcontractor
                                to Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/07/02        A020079         Audit of Request for Equitable Adjustment:     Atlantic Coast Mechanical, Inc.,
                                Contract Number GS-04P-97-EXC-0015

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/08/02        A020094         Preaward Audit of Multiple Award Schedule Contract:          QSS Group, Inc.,
                                Solicitation Number FCIS-JB-980001-B

07/11/02        A020065         Preaward Audit of Multiple Award Schedule Contract:       Danka Office Imaging
                                Company, Solicitation Number FCGE-C1-00-0001-B

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/05/02        A020193         Preaward Audit of Cost or Pricing Data: CITI, Solicitation Number GSC-TFMG-02-
                                M038

08/06/02        A020207         Preaward Audit of Architect-Engineer Design Services Contract: Goody, Clancy &
                                Associates, Inc., Solicitation Number GS-01P-BZC-0005

08/07/02        A020173         Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                                P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM




58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


08/12/02   A020119   Audit of Request for Equitable Adjustment:      Coken Company, Inc., Contract
                     Number GS-04P-97-EXC-0015

09/03/02   A020114   Audit of Claim for Increased Costs: Cleveland Construction, Inc., Subcontractor to
                     Clark Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

09/04/02   A020180   Preaward Audit of Architect and Engineering Services Contract:               Adtek
                     Engineering, Inc., Solicitation Number GS-11P-01-YTD-0319

09/12/02   A020184   Audit of Request for Equitable Adjustment:      Atlantic Coast Mechanical, Inc.,
                     Contract Number GS-04P-97-EXC-0015

09/24/02   A020196   Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                     Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02   A020201   Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

09/26/02   A020066   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Danka Office
                     Imaging Company

09/27/02   A020212   Preaward Audit of Multiple Award Schedule Contract:         Kar Products, LLC.,
                     Solicitation Number 7FXP-D4-01-0539-B




                                                                           Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                            Projected Final
Report         Number                                         Title                              Action Date


Internal Audits
07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year             06/15/04
                                1998 Financial Statement Audit

03/31/00        A995010         PBS Needs to Complete STAR Development and Implement                   10/15/03
                                Management and System Controls to Fully Realize Improved
                                Capabilities

08/02/00        A995201         PricewaterhouseCoopers LLP Management Letter Fiscal Year              10/15/03
                                1999 Financial Statement Audit

03/27/01        A000968         Review of Operating Equipment Inventories:       Public Buildings      11/15/03
                                Service, New England Region

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and Year-          12/15/03
                                End Management Letters

06/21/01        A000811         GSA’s Increasing use of Electronic Commerce Systems Requires           12/15/03
                                Improved Security

09/28/01        A010044         Audit of the Public Buildings Service’s Asset Business                 11/15/03
                                Plans

10/17/01        A001122         Review of PBS Use of the Occupancy Agreement                          10/15/03

02/07/02        A010187         EDP Management Letter FY 2001 Financial Statement Audit               11/15/03

05/10/02        A010187         Audit of the General Services Administration’s Fiscal Years 2001       01/15/04
                                and 2000 Financial Statements

08/30/02        A010029         Feddesk’s Online Services Require a Risk Assessment and               01/15/04
                                Careful Consideration of User Requirements

09/26/02        A020011         Audit of GSA’s Electronic Mail System Security                        10/15/03

09/30/02        A020056         Audit of Controls Over Reimbursable Work Authorizations Billing       10/15/03
                                Practices in the Greater Southwest Region




60 Semiannual Report to the Congress
                                  Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                 • The Profit Recovery Group, through a contract
                                                              arrangement with GSA, continues to actively review
Collection                                                    and pursue overpayments, in conjunction with our
During the period April 1, 2003 through September 30,         Public Buildings Service and Federal Technology
2003, GSA efforts to improve debt collection and              Service Accounts Payable Division associates.
reduce the amount of debt written off as uncollectible
focused on upgrading the collection function and            • GSA representatives held meetings with various
enhancing debt management.           These activities         National Institute for the Blind/National Institute for
included the following:                                       the Severely Handicapped (NIB/NISH) customers to
                                                              discuss payment of GSA bills. The representatives
• In compliance with the Debt Collection                      emphasized all GSA bills must be paid within
  Improvement Act of 1996, GSA transmits                      45 days, including those for items with discrepan-
  delinquent claims each month to the U.S.                    cies. As a result, the amount of outstanding
  Department of the Treasury (Treasury) Financial             accounts receivable from NIB/NISH customers
  Management Service (FMS) for collection cross               decreased from $4.1 million on March 31, 2003, to
  servicing.                                                  $2.9 million on August 31, 2003.
• Persistent claims coordination between regional           • As of September 4, 2003, the District of Columbia
  contracting officers, Treasury, and our Finance             (DC) Government owed GSA $768,227 for supply
  Centers continues to strengthen our claims                  bills over two years old. This is a decrease of
  collection efforts.                                         approximately $120,000 from the amount owed as
                                                              of February 28, 2003. Because of payments made
• Efforts continue to enhance the Accounts
                                                              on the delinquent bills and other old billings, the
  Receivable Claims System (ARCS), Version 6, and
                                                              Federal Supply Service (FSS) lifted the suspension
  the Billing Accounts Receivable Tracking system,
                                                              on the DC Government’s authority to purchase new
  making them better tools for collection technicians
                                                              non-emergency vehicles. Several face-to-face
  and enabling them to provide better service to their
  customers. During the period, four new reports              meetings between the DC Government, GSA Office
  were created in ARCS to improve the accuracy of             of Finance, and FSS were held in the spring and
  data reported on the Treasury Report on                     summer to discuss payment of these bills. A
  Receivables, the Inspector General’s Semiannual             spreadsheet of all outstanding supply bills is sent
  Report to the Congress, and to our monthly                  monthly to the DC Government’s Inspector General
  Accounts Receivable Statistics Report.                      (IG) and Chief Financial Officer (CFO). The
                                                              meetings resulted in payment of many outstanding
• GSA has been working with the FMS to remove all             delinquent bills and focused the attention of the DC
  non-paying claims over two years old from open              Government IG and CFO offices on paying future
  receivables. This will give us a clearer picture of our     GSA bills in a timely manner.
  outstanding workload and help us concentrate on
  collectible receivables. We have implemented a            • During this period, $3,885,695 was collected on four
  100-day plan to review and contact delinquent               recent audit-related claims. Two of the claims were
  accounts, especially those approaching two years            paid in full and the remaining balance due on the
  old, on a quarterly basis. A substantial number of          other two claims is $540,500. The largest audit
  two year old claims were researched and either              claim collected was $2,365,695 related to a case
  collected or written off.                                   against Sprint Communications.




                                                                                        Office of Inspector General 61
                                  Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

Non-Federal Accounts Receivable

                                                   As of                  As of
                                                April 1, 2003       September 30, 2003   Difference

   Total Amounts Due GSA                        $20,815,885            $17,564,137       -$3,251,748

   Amounts Delinquent                           $12,683,773            $10,177,279       -$2,506,594

   Total Amount Written
   Off as Uncollectible
   Between 4/01/03 and
   9/30/03                                        $3,336,514




62 Semiannual Report to the Congress
                                    Appendix V–Reporting Requirements




The table below cross-references the reporting require-                       Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                        1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                              and the National Defense Authorization Act is also
addressed.     The information requested by the                               cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                              Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .24–26

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . .2, 15

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 15

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . .2, 15

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .47




                                                                                                                    Office of Inspector General 63
                            Appendix VI–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Daniel R. Levinson (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


  Office of Counsel to the Inspector General
  Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation
  Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


  Headquarters Regional Inspectors General for Auditing (RIGAs)
  Finance & Staff Offices Audit Office, Acting RIGA Kristin R. Wilson (JA-F) . . . . . . . . . . . .(202) 501-0006

  Information Technology Audit Office, RIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . . .(703) 308-1223

  Acquisition Programs Audit Office, Acting RIGA Kenneth L. Crompton (JA-A) . . . . . . . . .(703) 603-0189

  Real Property Audit Office, RIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


  Regional Inspectors General for Auditing (RIGAs)
  National Capital Field Office, RIGA Andrew A. Russoniello (JA-W) . . . . . . . . . . . . . . . . .(202) 708-5340

  New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

  Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, RIGA Warren T. Platt (JA-4) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




64 Semiannual Report to the Congress
                        Appendix VI–OIG Offices and Key Officials



Regional Inspectors General for Auditing (RIGAs) continued
The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

  Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


Office of Investigations
Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . .(202) 501-1397



Regional Inspectors General for Investigations (RIGIs)
Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . .(215) 446-4830

New York Zone Office, RIGI Peter P. Maino (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

  Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . .(617) 565-6820

Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

  Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . .(816) 926-7214

  Cleveland Sub-Office, Special Agent James T. Sohayda (JI-5/CLE) . . . . . . . . . . . . . . .(216) 522-2155

Fort Worth Zone Office, RIGI Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

  Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

  Auburn Sub-Office, Special Agent Terry Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director James J. Matthews (JPH) . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Larry C. Begley (JPM) . . . . . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                 Office of Inspector General 65
                                       Notes




66 Semiannual Report to the Congress
Ma e
Ii ,
•
I
y ur
m                                      ,
                                       II




            •
I           I          II'



To report suspected waste, fraud, abuse, or
mismanagement in GSA, call y~~~~


Inspector General's Hotlin
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405


Office of Inspector General
U.S. General Services Administration
